<html>
<title> - EVALUATING A TEMPORARY GUEST WORKER PROGRAM</title>
<body><pre>[Senate Hearing 108-509]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-509

              EVALUATING A TEMPORARY GUEST WORKER PROGRAM

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON IMMIGRATION, BORDER SECURITY AND CITIZENSHIP

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 12, 2004

                               __________

                          Serial No. J-108-57

                               __________

         Printed for the use of the Committee on the Judiciary



                    U.S. GOVERNMENT PRINTING OFFICE
94-556                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Immigration, Border Security and Citizenship

                   SAXBY CHAMBLISS, Georgia, Chairman
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     PATRICK J. LEAHY, Vermont
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
LARRY E. CRAIG, Idaho                RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
                  Joe Jacquot, Majority Chief Counsel
                  James Flug, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Chambliss, Hon. Saxby, a U.S. Senator from the State of Georgia..     9
    prepared statement...........................................   112
Cornyn, Hon. John, a U.S. Senator from the State of Texas........     7
Craig, Hon. Larry E., a U.S. Senator from the State of Idaho.....     4
    prepared statement and attachments...........................   114
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah, 
  prepared statement.............................................   142
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................    12
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........    31
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   159
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....    27

                               WITNESSES

Aguirre, Eduardo, Director, U.S. Citizenship and Immigration 
  Services, Department of Homeland Security, Washington, D.C.....    15
Birkman, Richard R., President, Texas Roofing Company, Austin, 
  Texas..........................................................    39
Briggs, Vernon, Professor of Industrial and Labor Relations, 
  Cornell University, Ithaca, New York...........................    44
Cervantes, Charles, General Counsel, U.S.-Mexico Chamber of 
  Commerce, Washington, D.C......................................    42
Hagel, Hon. Chuck, a U.S. Senator from the State of Nebraska.....     3
Hutchinson, Asa, Under Secretary for Border and Transportation 
  Security Directorate, Department of Homeland Security, 
  Washington, D.C................................................    17
Law, Steven J., Deputy Secretary, Department of Labor, 
  Washington, D.C................................................    13
McCain, Hon. John, a U.S. Senator from the State of Arizona......     1
Papademetriou, Demetrios, Co-Director, Migration Policy 
  Institute, Washington, D.C.....................................    40

                         QUESTIONS AND ANSWERS

Responses of Richard R. Birkman to questions submitted by 
  Senators Chambliss, and Sessions...............................    52
Responses of Vernon M. Briggs, Jr., to questions submitted by 
  Senator Chambliss..............................................    55
Responses of Asa Hutchinson to questions submitted by Senators 
  Grassley, Sessions, Cornyn, Kennedy and Feinstein..............    59
Responses of Demetrios G. Papademetriou to questions submitted by 
  Senator Feinstein..............................................    76

                       SUBMISSIONS FOR THE RECORD

Aguirre, Eduardo, Director, U.S. Citizenship and Immigration 
  Services, U.S.Department of Homeland Security, Washington, 
  D.C., prepared statement.......................................    82
Associated Landscape Contractors of America, Debra Holder, 
  Executive Director and Professional Lawn Care Association of 
  America, Gary Clayton, Executive Vice President, prepared 
  statement......................................................    90
Birkman, Richard R., President, Texas Roofing Company, Austin, 
  Texas, prepared statement......................................    93
Briggs, Vernon, Professor of Industrial and Labor Relations, 
  Cornell University, Ithaca, New York, prepared statement.......    99
Cervantes, Charles, General Counsel, U.S.-Mexico Chamber of 
  Commerce, Washington, D.C., prepared statement.................   109
Hagel, Hon. Chuck, a U.S. Senator from the State of Nebraska, 
  prepared statement.............................................   140
Hutchinson, Asa, Under Secretary for Border and Transportation 
  Security Directorate, U.S. Department of Homeland Security, 
  Washington, D.C., prepared statement...........................   145
Law, Steven J., Deputy Secretary, U.S. Department of Labor, 
  Washington, D.C., prepared statement...........................   151
Legal Times, Points of View, Feb. 2, 2004, article...............   161
Papademetriou, Demetrios, Co-Director, Migration Policy 
  Institute, Washington, D.C., prepared statement................   162

 
              EVALUATING A TEMPORARY GUEST WORKER PROGRAM

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2004

                              United States Senate,
          Subcommittee on Immigration, Border Security and 
                   Citizenship, Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:39 p.m. in 
Room SD-226, Dirksen Senate Office Building, Hon. Saxby 
Chambliss, Chairman of the Subcommittee, presiding.
    Present: Senators Chambliss, Kyl, Sessions, Craig, Cornyn, 
and Kennedy.
    Chairman Chambliss. This hearing will come to order.
    Let me welcome all of you here today to discuss not only a 
very important issue but a very sensitive issue to all 
Americans, and obviously, with the size of the crowd and the 
enthusiasm that we feel out there, we know that there is 
tremendous interest in this issue.
    I want to start off with four of our colleagues before 
Senator Kennedy or I, either one, make any comments on this 
issue and give you four gentlemen an opportunity to make some 
comments about your thoughts, your ideas, and if you want to, 
your pieces of legislation that certainly are going to be 
considered by this Subcommittee.
    And I want to move right into that, because I know all of 
you have very, very busy schedules.
    Senator Hagel, we are going to start with you, and John, we 
will come right down the row. Yes, sir.
    Senator Hagel. Mr. Chairman, I understand Senator McCain 
has a pending amendment that he is going to address, and if it 
is okay with the Committee, I would be very pleased--
    Chairman Chambliss. Sure.
    Senator Hagel. --to follow in behind Senator McCain.
    Chairman Chambliss. All right; Senator McCain, we will 
start with you, and then, we will come back to Senator Hagel 
and go to Senator Craig and Senator Cornyn. And welcome.

STATEMENT OF HON. JOHN MCCAIN, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator McCain. Thank you, Mr. Chairman and Senator 
Kennedy. I will be very brief.
    I would like to just begin by reading from a February 12, 
12:00 a.m., the Arizona Republic, story by David Gonzalez. This 
is today, today. Law enforcement officials Wednesday 
apprehended 158 undocumented immigrants who were being held by 
armed smugglers in a rented house in North Phoenix in filthy 
conditions without food or water. A Federal immigration 
official said he believes this is the highest number of people 
ever discovered in one location in the Phoenix area, which, in 
recent years, has become the nation's main transportation hub 
for illegal immigration.
    Phoenix Mayor Phil Gordon said Wednesday's discovery 
underscores the need for Federal immigration reform, pointing 
out that although police can stop criminal activity, they can 
do little to stem the flow of undocumented immigrants into the 
city. Quote, it is a mandate that affects all of us, Gordon 
said, and we need an immigration policy that works, and we need 
to secure our borders. The Federal Government has to do 
something about these issues.
    The story concludes, Mr. Chairman: The migrants had been 
living and sleeping and the floor in the rented four-bedroom 
house with no furniture and backed-up toilets overflowing with 
human feces. A backed-up drain in the back yard overflowed with 
human waste, Lundberg said. Several of the migrants told 
Federal investigators they had not eaten in 3 days. 
Investigators also discovered two weapons in a back bedroom of 
the house, an AK-47 assault rifle and a 9-millimeter 
semiautomatic rifle. Smugglers typically use guns to prevent 
immigrants from escaping without paying smuggling fees and to 
protect themselves from being robbed by gangsters who try to 
steal immigrants from smugglers.
    We recently had a shootout on the Interstate south of 
Phoenix between different gangs. I point that out to you, 
today's paper, Mr. Chairman; that is why this Committee and the 
Congress of the United States needs to act. Do you know what 
the conventional wisdom is? We are going to talk about it; we 
are going to debate it; we are going to discuss it, and nothing 
is going to happen this year, because the issue is too hot 
politically, too hot politically.
    Mr. Chairman, there are between 8 and 15 million people 
living here illegally. The size of that estimate shows us how 
little we know. We know that people are going to go where there 
are jobs. We know where there is a supply, there is going to be 
a demand. We know that because we have not won the war on 
drugs. The cost of an ounce of cocaine in the streets of 
Phoenix is less today than it was 10 years ago.
    And the other aspect of this that we seem not to be 
concerned about as some would think is that hundreds are dying 
on the border as they are trying to get across, because they 
want to feed themselves and their families. And I would urge 
the Chairman, and I would welcome the Senator from 
Massachusetts back to Arizona. He was recently there on a 
political trip. We were pleased at your economic input, Senator 
Kennedy.
    [Laughter.]
    Senator McCain. And to come and see our border. Our border 
is not secure. If we are going to assure the American people 
that we are going to win the war on terror, we have to have a 
secure border.
    Last month, 34,000 people were apprehended just in the 
Tucson area of the Arizona-Mexico border. That is up 20 percent 
from last year. Our borders are not secure, and we are not 
going to secure our borders until we supply willing workers 
with willing employers who will then stem this flow of people 
coming across our border illegally.
    Mr. Chairman, there are about as many proposals as there 
are members of the United States Senate. It is time we all got 
together and sat down and came up with a common proposal and 
acted before we go out in the August recess, or we will not act 
in an election year, and hundreds more will die; thousands more 
will be in houses in Phoenix living in human waste and being 
killed and mistreated.
    So the issue is of incredible urgency. I hope we can act. I 
believe we should act, and I believe we will not. And I thank 
you, Mr. Chairman, for allowing me to be here today.
    Chairman Chambliss. Thank you, Senator McCain. And I assure 
you, Senator Kennedy and I share your passion.
    Senator Hagel?

STATEMENT OF HON. CHUCK HAGEL, A U.S. SENATOR FROM THE STATE OF 
                            NEBRASKA

    Senator Hagel. Mr. Chairman, thank you; Senator Kennedy, 
thank you. Senator Kennedy, you have been engaged, involved for 
many years on this issue, and we are grateful for your 
continued leadership.
    Mr. Chairman, on behalf of Senator Daschle and myself, we 
appreciate an opportunity to address this Committee on this 
critical issue of immigration reform, an issue, as Senator 
McCain noted, that Congress cannot defer any longer. Last 
month, Senator Daschle and I introduced S.2010, the Immigration 
Reform Act of 2004. Our legislation is a bipartisan, 
comprehensive proposal that addresses the complicated and 
difficult issues related to U.S. immigration law, and again, I 
wish to thank Senator Kennedy and his staff for their input.
    Our bill would, very briefly, first, strengthen national 
security by identifying undocumented immigrants living in the 
U.S., tracking foreign workers entering our borders and 
increasing funds for border security; second, fix the current 
system for immigrants who follow the law by reducing visa 
processing backlogs, reuniting families and remedying current 
inequities under the current law; and third, improve economic 
stability by establishing an enforceable program to bring 
needed foreign workers into the U.S. for jobs that would 
otherwise go unfilled.
    Let me briefly address each of those points, Mr. Chairman. 
National security: to track and identify immigrants living 
within and entering U.S. borders for work, our bill requires 
immigrants to undergo criminal and national security background 
checks prior to authorization. Participants in the bill's 
worker program would be required to maintain counterfeit-
resistant authorization cards issued by the Department of 
Homeland Security. Individuals who continue to break 
immigration laws would be barred from all of these programs. 
Fees associated with our bill would be designated for border 
security.
    Fixing the current system: our legislation reduces the 
existing backlog of applications for family-sponsored visas to 
ensure that immigrants will be allowed to reunite with their 
U.S. citizen and legal resident family members. The bill 
provides designated funding to implement these changes.
    Economic stability: to provide foreign workers for jobs 
that would otherwise go unfilled, our bill admits a limited 
number of workers through a willing worker program. Employers 
seeking to hire a foreign worker must first demonstrate that no 
qualified U.S. worker exists and that they will provide the 
same wage levels and benefits and working conditions as 
provided for U.S. workers. Workers will be admitted for a 
limited period of time and will be allowed to change employers. 
Visa renewals would be available on a conditional basis. 
Qualified workers and their families would be provided an 
opportunity to adjust their immigration status.
    Last point I would make, Mr. Chairman: opportunity to 
become a stakeholder. Our legislation provides an opportunity 
for undocumented workers and families currently living in the 
U.S. to become invested stakeholders in the country, this 
country, the United States, if they can demonstrate that they 
have met all of the following requirements: pass national 
security and criminal background checks; resided in the U.S. 
for at least 5 years preceding the date of introduction; worked 
a minimum of 4 years in the U.S., one of which must occur post-
enactment; paid all Federal taxes; demonstrated knowledge of 
the English language and American civics requirements and paid 
a $1,000 fine in addition to required application fees. 
Individuals who qualify for this program will submit an 
application to the Department of Homeland Security. Upon 
approval, DHS may adjust the immigration status of qualified 
applicants.
    Senator Daschle and I look forward to working with your 
Committee, our colleagues here at this table and our colleagues 
in the Congress and the Bush administration on this important 
issue. And I would restate what Senator McCain said; you both 
have noted as well and obviously agree with your interest in 
this and holding hearings, that it is important this year that 
the Congress act on bipartisan legislation that addresses this 
very important issue.
    Mr. Chairman, thank you; Senator Kennedy.
    [The prepared statement of Senator Hagel appears as a 
submission for the record.]
    Chairman Chambliss. Thank you very much, Senator Hagel, and 
again, your leadership on this is critically important. And I 
am familiar with your bill, and you and Senator Daschle have 
done an awful lot of background, an awful lot of homework. So 
thank you for being here today.
    Senator Craig?

STATEMENT OF HON. LARRY CRAIG, A U.S. SENATOR FROM THE STATE OF 
                             IDAHO

    Senator Craig. Well, Mr. Chairman, thank you for the 
courtesy of allowing those of us who are before you now to 
testify at this time in this most important hearing. I am 
pleased to see Senator Kennedy here, who has clearly been a 
leader on this issue.
    A decade before our President came to office, this Nation 
began a period of open denial of the reality that our 
immigration laws were broken, Mr. Chairman, and that we chose 
not to control our borders. I believe that to be a fact. It has 
to be a fact, if today we are to suggest that there are between 
8 to 12 to 15 million undocumented foreign nationals in this 
country. 9/11 was a reality. It was a wakeup call. It did not 
solve the problem, nor when we closed our borders post-9/11, 
did we solve a problem; we created two problems.
    And it is about that that I would like to visit with you 
today and also talk about the legislation that Senator Kennedy 
and I have introduced. Secretary Ridge and the administration 
and an awful lot of well-meaning people at this point are 
working overtime trying to gain control of our borders, both 
our land and water ports of entry. And I wish them well; the 
American taxpayer is investing a phenomenal amount of money at 
this time in trying to resolve this issue.
    But where there is a dynamic force, there will be a dynamic 
will. And what I think that we fail to recognize that post-9/11 
border closure created a new problem. It locked a large number 
of people in our country at a time when we were trying to keep 
people out of our country. Those who had flowed back and forth 
across our border on an annual basis to work in our economy all 
of a sudden found that it was nearly impossible to get home, 
and once they got home, it was nearly impossible to get back to 
where they may have worked for 3 to 5 years prior to border 
closures.
    So while we were working to solve a problem, we were 
aggressively creating a problem. And I think that is a reality 
that we are currently experiencing today and one that we must 
openly deal with. The only way to solve our border problem is 
not to hire another 10,000 Border Patrolmen; it does not work, 
or what John McCain just said would not have happened in 
Phoenix, Arizona.
    We have put not just 3,000 on the border; between 1965 and 
now, we have increased that number from 3,000 to 10,000, and 
yet, this past year, we arrested, detained and deported over 
800,000 foreign nationals. So just locking up our borders, an 
impossible task; just hiring more people will not solve it. 
Control our borders, we must. That is step number one, and we 
are well on our way to trying to do it.
    Step number two is obviously to create a problem that is 
dynamic, that recognizes the needs of our country and the needs 
and responsibility we have towards foreign nationals who would 
choose to come and work here in the economy. I say this only as 
a side note, but it is a note of reality. I chair a Committee 
that has nothing to do with immigration. It is called the 
Special Committee on Aging. But I asked Alan Greenspan a year 
ago to come before that Committee not to talk about prime rate 
but to talk about the demographics of aging.
    Japan, a decade ago, flattened its economy; it stopped 
growing; it started dying. Why? Because there were more people 
leaving the work force than were entering the work force of 
Japan. It has a closed culture of its style, and no longer was 
it allowing the kind of immigrants into the country to work 
that it had in the past. Why? Korea's economy was doing well. 
It moved from the Korean to the Indonesian; the Indonesian 
economy was doing well. No one--or fewer were entering the work 
force; not no one.
    If we were to follow that pattern, we would be in the same 
demographic situation by about 2020. But because we do not 
follow that pattern, because we clearly allow those who want to 
work and are eligible to work to come into our country and work 
when those jobs cannot be filled by U.S. citizens, we will be 
able to sustain the dynamics of economic growth.
    My point here, Mr. Chairman, is that a good immigration 
policy is critical for this country if we are to sustain a 
dynamic economy. We must allow documented workers to come here 
to work and, hopefully, in almost all instances, to return to 
their homeland. That is the reality of part of what we are 
trying to deal with.
    The third arm of, I believe, the whole issue is law 
enforcement and being able to make sure that those who are 
undocumented can be detained and deported and handled 
responsibly and fairly. But we cannot do that before we solve 
the problem of those who are currently in our country, and 
clearly, that is what we set about to do. I believe it is not 
just a single approach, but it is a multiple of three, and 
clearly, the Subcommittee that you chair and the full Committee 
of Judiciary has the unique responsibility of fashioning 
dynamic immigration law that will work.
    Last year, in one of my counties only, in the State of 
Idaho, and it is certainly not a border state, local law 
enforcement detained and worked with the national immigration 
service to deport over 1,100 people. That is the reality of the 
situation. And yet, many of those people had been in that 
county for several years working. They were a necessary and 
needed part of our work force.
    Now, what have I done to solve this? What has Senator 
Kennedy done? We introduced a bill that dealt with agriculture 
alone. But we believe it is a model piece of legislation that 
can be broadly approached to the whole economy. We call it 
AgJobs. Here in the Senate, it is 1645. It is, in my opinion, 
Mr. Chairman, the lead legislation. We have now 52 cosponsors, 
equally Democrat and Republican. Why? Because the Senator and I 
have worked to get it there.
    But it is a work in progress that has been over 5 years in 
the designing of, and it recognizes the need to identify the 
current work force that is here; to cause them to be 
documented; to do background checks; and to cause those who do 
not fit to be removed. At the same time, it respects the humane 
treatment of those citizens and recognizes that once 
documented, they move from the back streets of our country and 
the alleys and the shadows to the front streets, where they can 
get the kind of care or they can be treated as they should be 
treated, fairly and responsibly by all, and therefore deny the 
risk of being exploited by an employer who might choose to 
employ them in an unscrupulous way.
    That is the reality of what we are dealing with. We are 
also dealing with something else. Mr. Chairman, in certain 
economies, and the agricultural economy is a unique one, it is 
now estimated that as much of 75 percent of the ag economy in 
this country's work force is a foreign national work force, 
because the average American citizen just does not care to work 
in that kind of employment.
    If we do not develop a viable program for agriculture, we 
run the risk in many instances of some of our farms shutting 
down. It is an issue of food supply; it is an issue of quality 
food supply; it is an issue of harvest.
    Our bill is ready to go. I believe our bill has stood the 
test. It is a bipartisan, well thought-out, well-based bill, 
and what I am entering into the record today, Mr. Chairman, is 
something that no one else can do. I am entering the names of 
over 400 organizations across this country that have endorsed 
the Craig-Kennedy bill. Why? Because we have worked on it and 
built it in that way. And I am talking about the Farm Bureau on 
one side and the AFL-CIO on the other. I am talking about 
United Farm Workers. I am talking about a huge cross-section of 
the economy of our country that is associated with agriculture 
and numerous organizations from your State who also recognize, 
as they do from mine and others, that this is an issue whose 
time has come.
    And I would suggest that if the bigger bite at the apple 
that our President is proposing--and I am proud that he has 
been willing to lead on this issue--is a bite too big to chew 
this year, that you really ought to look at AgJobs, because we 
are talking about entering this issue in a way and creating a 
pilot program that we think has all of the dynamics necessary 
to identify the undocumented, to get them documented, to treat 
them fairly, to do the background checks, and to create a 
system by which they may gain permanent status for working in 
this country. And you and I both know how critical it is to the 
particular segment of the economy that we are talking about 
that this bill specifically address this.
    Thank you so much for your willingness to hear this. We 
will work overtime in the next few months to get that 
cosponsorship up to 60, and we think that this is the bill that 
ought to be introduced out of the Judiciary Committee this 
year; can be passed in the Senate; and I believe could be 
passed in the House.
    Thank you.
    Chairman Chambliss. Thank you, Senator Craig, and thanks 
for your leadership on the issue. You and I have had many, many 
discussions about this and about your bill, and your vision, 
your insight, and your hard work on this is critically 
important as we go through this process, so we thank you.
    Senator Cornyn?

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Chairman Chambliss, Senator Kennedy, thank 
you very much for the opportunity to talk just a few minutes 
about the legislation that I have filed about 8 months ago, 
now, in this important area. I look forward, after concluding 
my remarks, to joining you up there as a member of the 
Subcommittee, because I am interested in hearing what all of 
the witnesses have to say on this important topic.
    But I think the fact that Chairman Chambliss, you have seen 
fit to convene this hearing demonstrates one important 
consensus in an area where it is hard to find very much 
agreement, and that is that the status quo, when it comes to 
immigration policy in this country, is simply unacceptable. It 
is broken, and it needs to be reformed.
    I, too, think the President has spoken courageously on this 
subject when he outlined the immigration principles that he did 
last month, and I believe that the President's basic principles 
are embodied in the bill that I will describe. In particular, 
the President's fourth principle of immigration reform as 
outlined in his speech is to provide incentives for temporary 
workers to return to their home country.
    I believe this is a crucial component of comprehensive 
immigration reform, and it is one that among all of the options 
before you today is embodied only in my bill. We must provide 
incentives for risk takers to return to their home country with 
the capital and the skills they have acquired as temporary 
workers in the United States if we are going to begin to 
address the root causes of illegal immigration in the first 
place.
    In meetings I have had with officials of the Mexican 
Government, both in Mexico City and here in Washington, I am 
repeatedly told that these officials, these leaders of Mexico, 
our neighbor, want their workers to return home, to return home 
with capital and skills. They need those small business owners, 
those entrepreneurs, to strengthen a weakened middle class that 
produces too few jobs now, which is really the reason people 
come to this country in the first place.
    But our current immigration policy fails to give 
undocumented immigrants any incentive to make such a return. My 
bill would include a provision that would create an individual 
savings account from payroll taxes of temporary workers that 
they can only access when they return to their home country. 
The fact is there will be no end to illegal immigration across 
our southern border without economic recovery south of our 
border, in Mexico and Central America and beyond. And that will 
not happen unless workers return and build the economies in 
their home countries. Those of us here in America cannot afford 
for our southern border to remain a one-way street.
    I know so often in this debate, there are those who say we 
are not interested in talking about immigration reform unless 
we are talking about amnesty. Well, I am not there; neither do 
I believe that the majority of the Congress. Conversely, there 
are those who say I am not interested in talking about 
immigration reform unless you are talking about building a wall 
between our southern border and the rest of the countries south 
of that border or, perhaps, deploying the military along our 
border.
    Well, Mr. Chairman, I do not think you could build a wall 
high enough or wide enough to keep people out of this country 
who have no hope and no opportunity where they live. In fact, 
this is a term I wish I could claim credit for, but I was 
talking to one of my constituents today who will be a witness 
here later on, and he said what we have now is de facto 
amnesty.
    And, you know, I think he is exactly right. We have a 
system now where we do not have the political will and have not 
had the political will, unfortunately, to enforce the laws that 
we have on the books. And I believe that has created a 
condition that is intolerable in a nation that values the rule 
of law. It has contributed to, I believe, general disrespect 
for the law and particularly those laws that govern 
immigration.
    I believe that if we acknowledge the vital role of 
hardworking immigrants in our economy and create a 
comprehensive program, that it will be an important step toward 
reestablishing respect for our laws and restoring safe working 
conditions for immigrants who work here. It will enhance 
America's homeland security, facilitate enforcement of our 
immigration and labor laws and protect millions who labor 
outside of the protection of those laws today.
    My proposal will encourage undocumented immigrants to come 
out of the shadows, get on the tax rolls and to work within the 
law and then return to their homes and families with the pay 
and skills that they acquire as guest workers in the United 
States. I, too, agree with Senator Craig and Senator McCain and 
Senator Hagel that we must act now.
    9/11 has created a condition where if we are going to have 
the homeland security that we need and that America demands, if 
we are going to have the border security that America needs and 
demands, we must have the immigration reform to go along with 
it. It is simply the other side of that same coin.
    We must strengthen the security of our borders and reform 
our immigration policies for those who want to work within a 
legal framework to support themselves and their families, and I 
urge Congress to act without delay and to follow our 
President's lead and pass meaningful immigration reform. Our 
economy and our homeland security simply depend on it.
    Thank you very much.
    Chairman Chambliss. Senator Cornyn, thank you very much. 
You come from a State that has a problem in this area that is 
certainly more critical than most every other State in the 
country, and we appreciate your insight and once again your 
leadership, and we look forward to working with you.
    At this time, I want to ask our first panel to move 
forward: Hon. Asa Hutchinson, who is becoming a regular around 
here, Asa, the Under Secretary for Border and Transportation 
Security Directorate for the Department of Homeland Security; 
Hon. Eduardo Aguirre, U.S. Citizenship and Immigration 
Services, Department of Homeland Security; and Hon. Steven Law, 
Deputy Secretary, Department of Labor.

OPENING STATEMENT OF HON. SAXBY CHAMBLISS, A U.S. SENATOR FROM 
                      THE STATE OF GEORGIA

    Chairman Chambliss. I appreciate very much the Senators who 
have just spoken as well as our witnesses that we have here 
today for our hearing on Evaluating a Temporary Guest Worker 
Proposal.
    President Bush has outlined his principles in a speech last 
month, and we have an administration panel that will explain 
and clarify the President's principles. This is the first 
hearing since the President's speech, and we expect to hold a 
series of guest worker hearings as we move forward in the 
legislative process.
    Since September 11, 2001, the administration has continued 
making strides to strengthen our homeland security. Over 1,000 
new Border Patrol agents have been added. The Department of 
Homeland Security has consolidated Customs Service agents and 
immigration personnel to enhance and streamline our border 
security. The entry-exit system, US-VISIT is now collecting 
biometric information for aliens traveling to the U.S. on a 
visa.
    Even with our best efforts, illegal immigration remains a 
vast problem that is getting more and more out of control. Most 
estimates, as Senator McCain mentioned in his comments, say 
there are 8 to 10 million or possibly more, and it is in the 
millions, and we have no idea exactly what that number is, and 
that is part of the problem.
    Of those, it is estimated that 60 percent entered the 
United States without inspection, which is a criminal offense. 
Such a large number of illegal aliens creates a financial drain 
due to nonreimbursed medical and educational services, burdens 
on our judicial system and allows criminal acts to go 
unchecked.
    Most illegal aliens come to the United States seeking jobs, 
the majority of them from Mexico. The U.S. per capita income is 
$32,000, while Mexico's per capita income is $3,700. Most of 
these folks are not security threats but are hardworking 
individuals who seek a better quality of life for them and 
their families. However, illegal entry into the United States 
is a security breach that we must address. It is also, 
unfortunately, a growing business for so-called coyotes, or 
human smugglers, who pack trucks full of workers and cross the 
border, sometimes with very, very tragic results.
    Many U.S. employers of aliens have difficulties in finding 
Americans to fill jobs performed by illegal aliens. These jobs 
range from agriculture to construction to the carpet industry 
in my home state. Employers also have difficulty in determining 
who is legal and who is illegal, due to the lack of verifiable 
documentation in the hiring process. This wink and nod cycle 
contributing to hiring illegal aliens must stop, while still 
providing a method for U.S. employers to access the workers 
they need.
    Finally, we must respect the rule of law when it comes to 
immigration reform. Along with any process for the employment 
of foreign workers, there needs to be enforcement against those 
who remain here illegally, outside the legal system. We have a 
serious lack of interior immigration agents, and we need to 
rethink our methods for how to conduct more vigorous 
enforcement actions against illegal aliens.
    We need a total overhaul of our immigration policies. This 
overhaul should meet our National security needs and our 
economic interests and be a manageable policy for how many 
people we admit to the United States. The logical place to 
start is with reform of the H-2A Agricultural Worker Program, 
as stated by Senator Craig.
    Based on the testimony and discussion of today's hearing, I 
plan to work with my colleagues and introduce an H-2A bill that 
will be a starting point for total immigration reform and is 
going to incorporate a lot of the provisions that are in bills 
that are already out there, which have already been well-
thought through.
    Farmers in my home State of Georgia who use the H-2A 
program tell me it is too burdensome and uncompetitive to use. 
Too often, farmers are not able to get through the bureaucratic 
channels in time to harvest their crops. The arcane, adverse 
effect wage rate and the labor regulations can make it more 
cost-effective to hire illegal workers rather than hire legal 
ones. And farmers who use the legal program are often the 
subject of frivolous lawsuits. These are some of the problems 
that we must avoid as we reform and improve our immigration 
policies.
    Now, the President has laid out his principles for guest 
worker legislation, and we are going to hear from some 
administration officials today. As I told the President 
recently, I applaud him for taking on this issue. This is an 
issue that we have been giving a wink and a nod to, and it is 
time we quit doing that, we laid it on the table, and we 
addressed the issue.
    I think, very honestly, the communication coming out of the 
White House that has gotten into the media relative to the 
principles laid out by the President have been misconstrued, 
and I look forward to hearing from our witnesses today to 
confirm or not confirm that, but I know with what he has told 
me, it does not coincide with a lot of what I have read in the 
media.
    Interestingly enough, Senator Kennedy and I discussed this 
issue months ago between ourselves, as we looked forward to 
what we were going to be doing within this Subcommittee. And 
while he and I will disagree on some of the ways that we fix 
the problem, it is the great benefit that we have in this 
country that we can disagree over issues that are so sensitive 
and so critically important as this issue is. But the good news 
in that is that he and I agree that it is a problem, just as 
the President agrees it is a problem. So I look forward to 
moving through the process and building on that framework that 
the President has set forth as Congress begins the legislative 
process towards reform.
    Now, there are certain concepts that I think are critically 
important, just like the President, just like every member who 
has testified, and there will be many more put forward. But I 
want to delineate several of these: first of all, to control 
illegal immigration, we must first control our borders. We, as 
members of the United States Senate as well as the other 
members of Congress on the other side of this great Capitol 
must commit to sufficient funding for our border security 
agencies, including the Border Patrol and our immigration 
enforcement agencies.
    Secondly, we must treat those who are here illegally as 
exactly that. Under a guest worker program, they should be 
allowed work visas but not green cards. They should not be 
given advantages over those who are attempting to come to the 
United States through the legal process, which any guest worker 
program should continue to encourage.
    Thirdly, foreign workers in a guest worker program must be 
temporary workers. Next, guest worker participants must have a 
job before they are given a guest worker status, and we must 
ensure that American workers are not displaced.
    Guest worker legislation should make use of current program 
aspects that do work well. There are a lot of provisions in H-
2A that work. There are a lot of provisions in H-1B that work. 
And we need to look at those programs and incorporate the 
aspects of those programs that do work.
    We must dedicate resources for interior enforcement and 
strengthen the penalties against aliens in the United States 
who are not guest workers and who continue in their illegal 
status. Employers must share the burden to facilitate a 
workable program and to stop the hiring of illegal aliens. And 
lastly, no one in the United States illegally should have the 
privileges associated with those who are here legally.
    Now, I understand that many of you in this room have been 
involved for a long time in figuring out workable immigration 
reforms. A lot of you have good ideas, and you are more of an 
expert than any of us are. So I appreciate your efforts, and we 
look forward to continuing to work with you as we move to 
reform the immigration policies of this country and make our 
situation much, much more workable.
    I will now turn to my friend, my ranking member, Senator 
Kennedy, for any comments he wishes to make.

 STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR FROM THE 
                     STATE OF MASSACHUSETTS

    Senator Kennedy. Thank you very much, Mr. Chairman, for 
having these hearings. And I join you in welcoming our 
colleagues who testified before us and who have given us a good 
deal of material to think about with their own programs. We 
thank them. And we look forward to our witnesses here today.
    In announcing his proposal, President Bush recognized 
America's proud tradition of welcoming immigrants, and he 
acknowledged the central role that immigrants have played in 
our Nation's life, and he rightfully paid tribute to immigrants 
in our armed forces who have given their lives to defend our 
freedom and ideals. Much of our Nation's success can be traced 
to the hard work and contribution of new generations of 
immigrants, and many industries, particularly the farming and 
service sectors, depend overwhelmingly on immigrant labor. And 
these workers benefit the nation and improve the quality of our 
lives.
    Yet, many are undocumented, and they live in constant fear 
of deportation and are easy targets of abuse and also 
unscrupulous employers. The status quo, as all of our 
colleagues have mentioned today, is unacceptable. We need sound 
immigration policies that provide a manageable, orderly 
immigration system. It is not enough just to bring the law into 
line with current economic realities. Reforms must also reflect 
the basic values of family unity and fundamental fairness and 
opportunity that is the heart of our heritage as a nation of 
immigrants.
    These are complex issues, but they also demand immediate 
attention. And I believe the White House proposal falls short 
of the serious reforms needed. It creates a temporary worker 
program similar to the ones of the past that treated immigrant 
workers as second-class citizens. It does little to provide 
permanent legal status for the millions of hardworking, 
undocumented men and women in our communities.
    The administration claims that these workers will come out 
of the shadows and sign up for a temporary worker program. But 
that result will never happen when the vast majority realize 
that they will be deported after their temporary status 
expires. Registering for work now only to be deported tomorrow 
is unfair and will not work.
    That fundamental flaw in the President's plan can be easily 
corrected by a reform plan that includes a genuine earned 
legalization program for undocumented workers, a revised 
temporary worker program with protections for both U.S. and 
foreign workers and a realistic path to citizenship for all 
deserving immigrants and a way to reunite immigrant families.
    Obviously, as the terrorist attacks of September 11 made 
clear, our immigration policy also has to protect and control 
our borders, and the current enforcement policies are not 
effective. Others have said we have to reduce the size of the 
haystack to better identify those who intend to do us harm. 
Legalizing the flow at our borders will strengthen our security 
and reduce the threat from terrorists. The problems in security 
are terrorists, not immigrants.
    We may not be able to enact all of these reforms this year, 
but we ought to try. We could get off to a good start by moving 
ahead on two long-stalled bills that have broad support. The 
first is the Agricultural Jobs bill that Senator Craig has 
mentioned. Last year, I had the opportunity to work with him 
and also Representative Cannon and Berman in introducing the 
AgJobs bill with the support of both the United Farm Workers 
and the agricultural industry, two diametrically-opposed groups 
who have not spoken to each other or, if they had, used words 
that we would not be mentioning here at this hearing; but 
nonetheless have been able to work out a process and a 
recommendation which I join with Senator Craig in believing 
that we should move ahead.
    The legislation recognizes the importance of immigrant farm 
workers and respects and rewards their work. It will improve 
the wages and working conditions of all farm workers; give 
foreign-born workers a way to become permanent residents. 
Growers will have a reliable work force at harvest time without 
sudden immigration raids. No one benefits when crops rot in the 
fields because no farm workers are available.
    The bill has over 52 sponsors, an equal number of 
Republicans and Democrats, and as Senator Craig pointed out, 
the support of more than 400 organizations. And with a nod from 
the administration, it would be enacted immediately.
    The second bill is the DREAM Act, a bipartisan compromise 
reached by Senator Hatch and Senator Durbin to help 
undocumented children obtain legal status, go on to college, 
eventually to become U.S. citizens. Our Committee approved it 
last year, and it is ready for consideration on the floor. And 
we await the administration support for that program as well.
    I hope we can work together to do as much as we can this 
year. The need is great. Some real bipartisan ground work has 
been laid. Let us build on it.
    Thank you, Mr. Chairman.
    Chairman Chambliss. Thank you.
    Mr. Law, we are going to start with you. We will move down 
this way. Again, we welcome all three of you here today. We 
look forward to your presentation and look forward to working 
with you as we go through this process.
    Mr. Law?

  STATEMENT OF STEVEN J. LAW, DEPUTY SECRETARY, DEPARTMENT OF 
                    LABOR, WASHINGTON, D.C.

    Mr. Law. Mr. Chairman, members of the Committee, thank you 
very much for convening today's hearing on the President's 
proposal for a temporary worker program. As your colleagues so 
eloquently testified just a few minutes ago, this is an issue 
of pressing and urgent concern that impacts our economy, our 
work force, and our values as a nation.
    These Senators and others have put forward proposals of 
their own that are bold and thoughtful. Many of them echo some 
though not all of the principles articulated by the President 
just last month, and we look forward to working with Congress 
to enact legislation that meets the President's standards for a 
vibrant temporary worker program that puts American workers 
first while dealing equitably with the millions of foreign 
workers who currently live and work in the shadows of American 
society.
    All over the country, in rural areas and cities, in a wide 
range of fields and occupations, undocumented workers supply 
labor for jobs that are vital to our economy and where American 
workers are often unavailable. The President's proposal for a 
new temporary worker program responds to this economic need by 
allowing immigrant workers to be hired when there are no 
willing and available Americans to fill the job.
    It would also bring millions of undocumented workers out of 
the shadows and into the mainstream economy, where they could 
work, invest, establish credit, and pay taxes. And by giving 
these workers temporary legal status, we will make them far 
less vulnerable to illegal exploitation, which drives down 
working conditions not only for undocumented foreign workers 
but also for American workers in the same fields and 
occupations.
    And as I said, the President articulated several guiding 
principles for the design of such a temporary worker program. 
First, we must protect the homeland by controlling our borders. 
This new program should support our border control efforts 
through agreements with countries whose nationals participate 
in the program, and it must be consistent with ongoing efforts 
to promote and strengthen homeland security.
    Second, the program needs to serve our economy by matching 
willing workers with willing employers. When no American worker 
is available and willing to fill the job, we need a streamlined 
and efficient program to connect willing foreign workers and 
American employers.
    Third, this program should reflect compassion by extending 
temporary worker status to undocumented foreign workers who 
currently have a job. These workers would enjoy the full 
protection of U.S. labor laws and be permitted to travel in and 
out of the country without fear of being denied reentry.
    At the same time, the program should also provide 
incentives for these workers to return home after their period 
of work has ended. The legal status granted by this program 
would last 3 years, with the possibility of renewal. Temporary 
workers should be able to return home with something saved up, 
for example, through special tax-deferred savings accounts or 
by receiving credit for working here in their home country's 
retirement system. They would also bring home their work 
experience, useful skills and an appreciation for American 
freedoms and labor standards, all of which will improve the 
economy and working conditions within their own countries. That 
helps foreign workers, but in the long run, it helps us as 
well.
    And finally, the program needs to protect the rights of 
legal immigrants. The President has made it clear that we must 
not reward those who break America's laws with a preferred path 
toward citizenship. Undocumented workers cannot be given an 
advantage over those who have followed the rules, and although 
our proposal would allow undocumented workers to pay a fee and 
apply for a green card, they would have to take their place in 
line like everyone else.
    The President's principles outline a new approach to some 
very difficult and pressing issues: the need for workers in a 
variety of sectors in our economy and a shadow labor market 
that needs to be brought out into the sunlight. Many important 
facets of the President's proposal will be administered by the 
Department of Homeland Security, and my colleagues will speak 
to those in a moment. It will be the Department of Labor's 
responsibility to ensure that American workers come first.
    Employers will need to show that they have taken every 
reasonable step to find a worker from the U.S. before they are 
allowed to hire a temporary foreign worker. We will also 
develop user-friendly, streamlined mechanisms for employers to 
locate willing and available workers, first from the U.S. and, 
if none can be found, then, from elsewhere.
    It is also our job to protect the rights of workers, 
whether they are U.S. citizens or temporary foreign workers. 
That includes the right to fair pay, protection from 
discrimination and retaliation and safe and healthy workplaces. 
And finally, it is the Department of Labor's mission to help 
train American workers so they can be first in line to claim 
the new jobs and opportunities that our dynamic economy will 
create in the decades ahead.
    I look forward to answering any questions you may have 
about the Department of Labor's role in this proposed program, 
and now, I will turn it over to my colleagues.
    Thank you.
    [The prepared statement of Mr. Law appears as a submission 
for the record.]
    Chairman Chambliss. Thank you very much.
    Mr. Aguirre, welcome back. We are glad to have you today.

 STATEMENT OF EDUARDO AGUIRRE, DIRECTOR, U.S. CITIZENSHIP AND 
    IMMIGRATION SERVICES, DEPARTMENT OF HOMELAND SECURITY, 
                        WASHINGTON, D.C.

    Mr. Aguirre. Thank you, Senator. Thank you, Mr. Chairman, 
Senators, of course, my own Senator Cornyn.
    My name is Eduardo Aguirre, and I have the honor of serving 
the administration and our great nation as the first Director 
of the U.S. Citizenship and Immigration Services, USCIS, within 
the Department of Homeland Security. This is my first 
opportunity to return to this Committee since my confirmation 
hearing on June 6 last year.
    Eight short months later, it is indeed a privilege to 
appear before you today on this panel to discuss the 
President's recent proposal for immigration reform. On the 
occasion of my confirmation hearing, I shared with you my story 
of having arrived as a 15-year-old unaccompanied minor from 
Cuba. My parents sent me to escape a repressive regime and to 
experience freedom and opportunities found only in America. 
That was, of course, the legal immigration track, the very 
system that I am now charged with fundamentally transforming 
into a more efficient and effective operation.
    Upon creation of the USCIS, my team of 15,000 and I embrace 
a simple but imperative mission: making certain that the right 
applicant receives the right benefit in the right amount of 
time and preventing the wrong applicant from accessing 
America's immigration benefits.
    We established three priorities, which guide every aspect 
of our work: eliminating the immigration benefits backlog while 
enhancing national security and improving customer service. 
Today actually marks our 349th day in existence, and I am 
particularly pleased with the progress that we have made. To 
date, we have initiated online features that allow customers to 
file electronically our commonly-used applications. We have 
established the Office of Citizenship. We have reduced lines. 
We have created a backlog reduction team and much more.
    At the same time, we take national security very seriously. 
We conduct background checks on the front and back end on 
nearly every application for an immigration benefit. That means 
that 35 million IBIS checks were taking place last year. We 
make no apologies for our commitment to the integrity of the 
immigration system, and we will not cut a single corner if it 
means compromising security to process an application more 
quickly. We are making America safer against security and 
criminal threats, one background check at a time.
    However, we will not declare victory on backlog reduction 
until we achieve the President's objective of universal 6-month 
processing by the end of fiscal year 2006. We will not declare 
victory on customer service until every legal immigrant is 
greeted with open arms and not endless lines, and we will not 
stop until we have restored public confidence in the integrity 
of America's immigration system.
    On January 7th, President Bush courageously confronted a 
broken system, one that has been ignored for too long. From the 
East Room of the White House, he called to Congress to deliver 
true reform and a new temporary worker program that facilitates 
economic growth, enhances national security, and promotes 
compassion.
    Deputy Secretary Law has already described the President's 
principles for a temporary worker program. I would like to 
quickly raise five points to complement my reflections on the 
process: first, this is not an amnesty program, which would 
otherwise join the illegal track with the legal one by 
facilitating green card status and potential naturalization. 
Rather, the President proposes a one-time, regulated 
opportunity for undocumented workers already here, as of the 
date of his announcement, to legitimize their presence and 
participate more fully in our economy for a finite period 
before returning home.
    Second, enforcement is paramount to the temporary worker 
program. While Under Secretary Hutchinson will elaborate on the 
point as it relates to border and work site enforcement, I must 
add that in the context of processing benefit applications, 
security and fraud prevention are synonymous with enforcement 
and must also be a priority.
    Third, the program will require incentives. These 
incentives include enforcement as well as economic and social 
incentives. The temporary worker should be able to travel, 
knowing that he or she can go and return freely to the country 
of origin for celebrations, funerals or vacation and 
maintaining important ties that will aid the worker in his or 
her eventual, yet certain, return.
    Since many of the individuals already present in the United 
States who would register to participate in this program would 
have accrued sufficient unlawful presence to be subject to the 
3- and 10-year bars for reentry, any legislation to create this 
program would necessarily need to address those bars for 
individuals who register.
    Fourth, the program should be fair and not come at the 
expense of legal immigrants, who have respected our laws and 
earned their place in line. If the temporary worker seeks 
existing paths to permanent residency, it is the President's 
belief that he or she should take their spot at the back of the 
line. Recognizing, however, that the current annual limitations 
may be insufficient, the President calls for a reasonable 
annual increase in legal immigrants.
    Fifth, the program must be one that can effectively be 
administered. The present proposal calls for aliens present in 
the United States as of April 7, 2004, to pay a fee upon 
registration in the program. In addition, USCIS would 
anticipate recovering the full cost of processing the 
applications through collection of processing fees, as is done 
currently with most of our applications today.
    President Bush has set high expectations for what new 
citizens should know about our history and government. He has 
charged my Bureau with examining the standards of knowledge in 
the current citizenship test to ensure that new citizens know 
not only the facts of our history but also the details that 
shaped our history. We are not looking for the test to be 
harder; we are not looking to make it easier, either. We just 
want it to be more meaningful.
    In his announcement, President Bush noted that we should 
have immigration laws that make us proud. We need a system that 
is compassionate, that serves the economy and fulfills 
security. That is the American way.
    Mr. Chairman, this concludes my remarks, and I look forward 
to the opportunity to respond to your questions.
    [The prepared statement of Mr. Aguirre appears as a 
submission for the record.]
    Chairman Chambliss. Thank you very much, and it is always a 
pleasure to have my long-time good friend, my former colleague 
in the House and now Secretary Asa Hutchinson.
    Welcome.

  STATEMENT OF ASA HUTCHINSON, UNDER SECRETARY FOR BORDER AND 
   TRANSPORTATION SECURITY, DEPARTMENT OF HOMELAND SECURITY, 
                        WASHINGTON, D.C.

    Mr. Hutchinson. Thank you, Mr. Chairman.
    Senators it is good to be before your Committee, and I 
would express my gratitude for your work on an issue that 
always does not bring you the greatest accolades in your 
respective States but is very important for our country.
    The President's leadership has brought to America's 
attention a long-neglected security problem for our Nation, 
that is, the 8 million undocumented immigrants who live outside 
the law and in the shadows of fear. The President's first 
principle that he articulated is that America must control our 
borders. This proposal gives the promise of strengthening our 
control over U.S. borders and, in turn, improving homeland 
security.
    Because we know that illegal entry across our borders makes 
more difficult the urgent task of securing the homeland, we 
must be able to better account for those individuals who enter 
our country illegally. But I also remind this Committee that we 
are tempted simply to think about those who enter illegally 
across our land border, but it is a fact that almost 40 percent 
of the 8 million are estimated to be visa overstays, and 
therefore, we have to concentrate upon tightening our land 
borders, but also, the work that the Department has done 
through US-VISIT in biometrically checking and determining visa 
overstays is a very important part of the President's principle 
of controlling our own borders.
    With a temporary worker program in place, law enforcement 
will be aided, because we will face fewer problems with 
unlawful workers and will be better able to focus on other 
threats to our Nation from criminals and terrorists. I would 
emphasize that this program is intended for those are here and 
working, as per the President's announcement on January 7th. 
There was no intent to encourage further illegal entries or to 
benefit those who enter illegally after the President's 
announcement. Accordingly, we would respectfully suggest that 
Congress carefully consider the effective date of any 
legislation.
    Another important security feature of this initiative is 
that the temporary workers would be permitted to travel legally 
and freely across the border, resulting in more efficient 
management of our borders. Giving the aliens the ability and 
the incentive to travel through our ports of entry is a 
tremendous advantage, and when our US-VISIT program is fully 
implemented, we will also know when aliens enter and exit the 
United States to verify that participants are complying with 
the terms of the worker program, making it easier to enforce.
    I take the rule of law seriously. For that reason, border 
enforcement will be critical to this process, and the 
Department of Homeland Security has set the stage for an 
effective border. Since September 11, the Border Patrol has 
increased the number of agents, as the Chairman indicated, from 
9,700 to 10,800, as of December 1st of last year. On the 
northern border, we have tripled the number of Border Patrol 
agents. In addition, we are continuing installation of 
monitoring devices along the borders, along with air 
surveillance assets. We are looking for new technological 
solutions as well as the investment of human resources.
    We believe that this program should link efforts to control 
our border in addition with international agreements with 
countries whose nationals will benefit from the program. We are 
currently negotiating interior repatriation agreements with 
Mexico that would help break the cycle of alien smuggling by 
returning aliens closer to their home, in the interior of the 
country. Cooperation from the Mexican Government is very 
important in a number of other border security areas.
    Let me assure you that a temporary worker program will not 
change our mission. We will still be engaged in enforcement, 
and unauthorized entry into the United States will still be 
illegal. And we will gain greater control over our borders by 
more effective deployment of technology, by coordinated law 
enforcement efforts and by increased manpower at our border hot 
spots.
    The President's proposal for the temporary worker program 
also requires the return of temporary workers to their home 
country after their period of work has concluded. Requiring 
workers to return home at the conclusion of the work and not 
permitting the work under the program to be a basis to obtain 
lawful permanent residence status are important distinctions 
from other proposals. The President's plan provides a 
disincentive to immigrate illegally to the United States when 
this type of program is the beginning of a path to return home 
and not a path to permanent residency or citizenship.
    Finally, workplace enforcement is a very important part of 
this initiative and our responsibilities. A temporary worker 
program would also require workplace enforcement. Employers 
should report to the Government the temporary workers they hire 
and who leave their employ so that we can keep track of people 
in the program and better enforce immigration laws. There are a 
number of existing systems that could serve as useful models 
for this new system.
    Our work site enforcement mission is now located in 
Immigration and Customs Enforcement. ICE will continue to 
coordinate its employer sanctions and work site enforcement 
activities with other agencies such as the Department of Labor 
that Steven Law well represents at this table.
    The President's proposal complements the Department's 
immigration enforcement initiatives as outlined in the 2005 
budget. The budget outlines more funds for work site 
enforcement, detention and removal, fugitive operations 
programs. All of this is important to the first principle of 
securing our borders. Passing this temporary worker program 
will bring a benefit to the American economy, but it will also 
bring integrity to our immigration system. It is a reasonable 
goal for us all to pursue. We stand ready to work with you, and 
again, we are grateful for your strong efforts in this arena.
    Thank you.
    [The prepared statement of Mr. Hutchinson appears as a 
submission for the record.]
    Chairman Chambliss. Thank you very much, Mr. Secretary, and 
gentlemen, unfortunately, we are going to be interrupted by a 
vote. We will be back as soon as we can, convening again after 
that vote.
    [Recess.]
    Chairman Chambliss. If we could have our witnesses back at 
the table, please.
    Mr. Law, a critical component for any guest worker program 
is having a labor test to ensure that we do not displace 
American workers. You addressed that in your comments, which I 
greatly appreciate. We have a labor certification process 
currently for our H-2A. We also have a labor attestation 
process for our H-1B. What test would you recommend for new 
workers, new guest workers, under the President's principles?
    Mr. Law. The President's proposal envisions something akin 
to an attestation-based program. You are right. There are a 
variety of labor-based visa programs that the Department of 
Labor administers labor certification processes for. Some of 
them are supervised recruitment, and, as you note, the H-1B 
program is very much of a de minimis attestation program.
    We would envision something that would be attestation-
based; in other words, it would allow employers to initiate 
recruitment of American workers prior to contacting us, prior 
to expressing a need for foreign temporary workers but that 
would have some rigor to it in terms of making sure that 
employers have taken every reasonable step to try to reach and 
recruit American workers before they then turn to the temporary 
worker program to find people to fill the job.
    Chairman Chambliss. Now, we are talking about more than a 
90-day period or a 120-day period; we may be talking about 
workers staying in this country and being employed for maybe 2 
years, maybe 3 years; I do not know what the period may be that 
ultimately comes out of any legislation. But I think it is safe 
to say we have talked in those parameters. Do you envision any 
tests being updated at any point in time, during whatever 
longevity period or legalized period there is for those folks 
to be here?
    Mr. Law. That is an issue that we want to work out with 
Congress. There are obviously incentives in different 
directions, depending on how complicated you make the system. 
If it becomes very repetitive and burdensome at some point, 
employers may not want to use the program at all. But clearly, 
we want to put forward a program that during the period of time 
that we are at least at the point at which employers want to 
find workers that the initial test, at the very least, makes it 
certain that the employer has taken every reasonable step to 
identify willing and available American workers before they 
avail themselves of the temporary worker program.
    Chairman Chambliss. Mr. Aguirre, you mentioned in your 
testimony that the administration would plan to address the 
problem of the 3-year and the 10-year bars currently in place 
for those applicants to a guest worker program. Would you like 
to elaborate on that for a minute, please?
    Mr. Aguirre. Yes, Mr. Chairman. I think it will be 
imperative that that particular element be addressed in 
legislation and in such a way that if the violation of the law 
is restricted to the crossing of the border illegally or being 
in this country illegally, it needs to be taken into account so 
that it evaporates, if you will, under the new law, once 
someone registers.
    But we need to make sure that if the criminality is related 
to something much more serious than that, perhaps people that 
are participating in smuggling rings or child molestation or 
rape or DWI or anything like that, that would be a separate 
type of a component. But if it is just the crossing portion, I 
would suggest that that ought to be waived.
    Chairman Chambliss. Okay; again, in your testimony, you 
mentioned a word that I do not use anymore, and it is the word 
called amnesty. It has such a negative connotation to it and 
maybe rightfully so, because this is one Senator who is not 
going to support a reform of an immigration system where we 
grant amnesty to folks who are here illegally.
    I understand the President's plan to be absolutely opposed 
to that also; that he is firmly opposed to granting so-called 
amnesty to anybody who is here illegally. But I think it has 
come out in the media in a different form from that. You 
mentioned it in your comments, but I would like to give you an 
opportunity to again elaborate on that particular aspect of the 
President's principles.
    Mr. Aguirre. Yes, Mr. Chairman; as I said in my testimony, 
the President's proposal is not amnesty. Now, let us define 
amnesty. The last time that amnesty was dealt with in this 
fashion was during President Reagan's term, and it allowed for 
these type of illegal immigrants to get on the track towards 
citizenship and certainly permanent residency.
    This is exactly not that. This puts the individual in a 
temporary worker program, and it does not lead to permanent 
residency or, of course, to citizenship. Nothing prevents the 
individual from trying to get on that track through normal, 
legal means and, of course, putting them at the back of the 
line. So I think we are talking about apples and oranges here, 
and amnesty is not what the President is proposing.
    Chairman Chambliss. Okay; also, in your testimony, I wrote 
down a phrase you used which--in referencing those folks who 
are now here illegally who would be legitimized in some way. 
You said we would legitimize their presence. Now, under the 
President's principles, would there be any way for any 
individual who is here illegally today to have their presence 
legitimized if they are unemployed?
    Mr. Aguirre. No, sir, the proposal here is a temporary 
worker permit. Now, let me correct that for a minute. It could 
apply to the families of individuals who are working here. But 
in terms of an adult, if they are not working, this program 
does not cover that particular situation.
    Chairman Chambliss. Secretary Hutchinson, is there any way, 
from a practical standpoint, to enforce the current laws on the 
books relative to sending back these 8, 10, 12 million people 
who are here illegally?
    Mr. Hutchinson. Well, it is illegal for them to be here, 
and it is our responsibility to enforce the law. But obviously, 
the 8 million undocumented workers in the country at the 
present time, we do not know exactly where they are. We do not 
have the capability to change that circumstance unless they 
come in contact with the criminal justice system, and that is 
generally the way in which we carry out our responsibility to 
remove those who are illegally in the country, by prioritizing 
those cases, investigations, based upon leads.
    But clearly, they are here. We do not know where a majority 
of them are. They live in the shadows, and that is what poses 
the security risk.
    Chairman Chambliss. All right; now, let us take that a step 
further and assume that we move ahead with legislation that 
legitimizes the presence of those persons who are here and are 
employed. There are still going to be some people who probably 
are not going to fit within that category who are here now 
illegally. How do we intend to enforce any new law that might 
come out of Congress and hit the President's desk relative to 
those folks who remain here illegally?
    Mr. Hutchinson. Well, first of all, by not creating the 
economic incentives for people to come here illegally, and 
giving them a legal path to be a temporary worker will be a 
huge boon to our enforcement efforts, because our enforcement 
efforts can then be targeted upon those fewer that still try to 
circumvent, come across illegally or remain illegally or the 
employers who still try to hire illegals. And so, we are able 
to concentrate our enforcement efforts.
    Secondly, it is very important to have an enforcement 
feature in whatever legislation that the Senate, the Congress, 
puts forth. And reporting requirements for the employers, 
tougher sanctions when necessary, greater ability of the 
employers to know that they are hiring individuals with a legal 
status in this country; these are important features of it.
    We are enhancing our compliance efforts. The President, as 
part of the 1905 budget, has more than doubled the amount for 
work site enforcement; detention and removal space; even on the 
legal side, Senator Cornyn I know is interested in, that the 
immigration judges have more resources. So that is all a part 
of our ability to do this in the future.
    Chairman Chambliss. It seems as though the criminal 
community has been a step ahead of us under current law. When 
we said you have got to have a green card to be here, they 
immediately counterfeited green cards and give them to anybody 
who will pay for them. We went a step further and said you have 
got to have a Social Security card. They now counterfeit those 
and give them to anybody who will pay for them.
    Are you confident that we are going to be able to craft a 
document that someone who fits within this program will be able 
to have in their possession that is going to identify them as 
being the person they say they are, plus, we are going to be 
able to create a document that will not be able to be 
counterfeited by the criminal underworld?
    Mr. Hutchinson. I do have that confidence. Of course, it is 
contingent upon the right legislation being passed, but I think 
it is an important part of a temporary worker card that we use 
a biometric identifier; that we build in these type of features 
to it from the very outset, so that we know, and we can 
confirm, the validity of the worker card and that the person 
who possesses it is the same identify of the person it has been 
issued to.
    It needs to be tied into our US-VISIT program, so that when 
they do go back and forth across the border, we can 
biometrically confirm that they did not give it to somebody 
else to come back in, but it is the same person who actually 
received this card. So if we have those tools, yes, I am 
confident that we can secure the system.
    Chairman Chambliss. Okay; thank you.
    Senator Craig?
    Senator Craig. Well, gentlemen, thank you all very much for 
your testimony and, I think, for clarifying the President's 
position as it relates to his speech and thoughts of several 
months ago. I felt very privileged being at the White House 
during that time and watching this President lead on this 
issue, because it is an issue that is demanding leadership at 
this moment.
    Having said that, yesterday, Asa, Eduardo, I engaged your 
ultimate boss.
    Mr. Aguirre. My wife?
    [Laughter.]
    Senator Craig. No, no, not your wife.
    [Laughter.]
    Mr. Aguirre. Pardon the interruption.
    Chairman Chambliss. That boy has learned something since he 
got to America.
    [Laughter.]
    Senator Craig. Yes, he sure has.
    We talked about law enforcement, because you, as we, all 
agree, recognize that what is needed is a three-pronged 
approach: border control, a program of identification and 
legitimacy that treats all parties well but has structure and 
has integrity, and thirdly, law enforcement at the local level.
    In one county, I mentioned in my opening statement, last 
year in Idaho, about 1,100 to 1,200 apprehensions of 
undocumented workers--not by the national immigration service 
but by the local county sheriff and deputy corps. It was the 
local taxpayer that withstood that expense. It was the local 
taxpayer that paid for the space in the jail. They were picked 
up and deported.
    I do not understand why, in the budget that I heard 
yesterday, that there is a substantial proposal to increase the 
hiring of and the training of Federal enforcers; there is 
little to no contact, training and/or resource deployment to 
the local level, where the rubber truly meets the road. You 
just said most are identified through some form of action, some 
of them criminal, and they are identified as being undocumented 
at that time at the local level. That is how it happens.
    I really would suggest--my counties are crying out for it--
for some resource, some support and some training. If you want 
effective law enforcement--now, I know there are bias, and 
there are all those types of things, but I would think that 
training and an appropriate relationship could change some of 
that to the extent that once we have created a program that has 
responsibility in it and stability, that law enforcement does 
start at that level.
    It is a substantial expense at the local level right now, 
one that they find burdensome at best. And we ought to try to 
see how we might resolve that. Jeff Sessions has legislation 
here; there is legislation in the House that is looking at 
something like that. And I think that truly, we have got to do 
that, because the totality of it is an important approach.
    Now, the frustration I have with the President's proposal 
is quite simply this: if we are to suggest that the 8 to 12 
million that are here only arrived yesterday, and they are 
going to be willing to go home, because they have not married, 
and they do not have children here, is to suggest that we do 
not know what we are talking about when it comes to the range 
of types of people who are out there.
    That is why, in my legislation, I do not do that. I do 
require that they show proof of 12 months here to identify; 
they have got to have been here 12 months. We do not obviously 
want to rush in, and we clearly have to understand that. We 
give them the right to earn, and they do not have to leave, 
unless their background check shows--that is what you 
explained, Eduardo.
    I do not think that we are effectively recognizing the 
population we are dealing with, and if we want the largest 
number possible, Asa, of identified people out there that are 
brought forward and carded in the appropriate fashion to give 
them integrity and to give your effort integrity, then, we have 
got to go after the larger number. And the only way I believe 
you go after the larger number is if you recognize the 
character of the population.
    Is a father going to come forward, only knowing that he 
will have to leave the country if he has children in this 
country who are, by definition, citizens if they were born 
here? I would doubt that. Would a mother do that? I would doubt 
that. That is the reality of a large chunk of that population.
    Could you react to that comment?
    Mr. Aguirre. Well, Senator, my reaction is that I think you 
have in your power, as you craft this legislation, the 
opportunity for, one, to extend for a significant period of 
time the renewal process here. The President has indicated that 
the initial temporary permit ought to be 3 years, but he 
indicated it should have the option of renewal. He did not have 
a cap on that.
    And so, I think it is certainly within your power to do 
that. I also do not think that the President intends for 
individuals who are trying to apply for green cards, to force 
them to get out of the country to make that application. Once 
again, I think it is in your power to provide for a feature for 
those who, as you indicated, have an interest in staying here 
to go ahead and apply for the green card and get on a parallel 
track while they continue to be temporary workers, to progress 
through the queue and see when they get to that.
    I think neither one of those are at all inconsistent with 
the President's attempt. The President is not interested in 
separating families, of course. On the contrary, I think we are 
bringing some significant compassion to the forefront here with 
this proposal that the President has.
    Senator Craig. Thank you. I am pleased to hear that, 
because obviously, at least it is obvious to me, and I have 
spent a good deal of time on this issue over the last 5 years, 
that there has got to be flexibility within the character of 
what we do; at the same time, we have got to have integrity.
    Let me go--my last question, so my other colleagues have 
ample time to ask, as it relates to identifying U.S. citizen 
domestic workers in this country before and the character, at 
least, in agriculture of the kind of work that we are dealing 
with. I propose a U.S. citizen registration system that the 
employer can go to. If there are not those on the system who 
have registered who are willing to work in that type of work, 
then, they can immediately activate the system of going after 
foreign nationals to meet that requirement.
    If we are not careful, the 300-plus pages of the H-2A 
program are exactly what we are going to have again.
    Mr. Aguirre. Right.
    Senator Craig. And shame on us for being that silly. Now, 
last year, it identified by those who became good at making the 
system of H-2A work 40,000-plus employees for agriculture. But 
we know there were about 1.5 million out there. Do the math. 
Shame on us for creating a monster bureaucracy that does not 
work at all very well and is not timely to either a migrant 
population--and sometimes, in agriculture, migration is 
necessary based on seasonal harvest--versus a stationary 
population, which is also necessary, and it is all those 
combination of things that we ought to be smart enough to deal 
with.
    Mr. Aguirre. Yes, sir.
    Senator Craig. And my fear is if we try to fall back and 
tweak the old system, we will only add more layers of 
bureaucracy to it and create a greater nonfunctional 
environment and invite in the very illegality that exists 
today, because we cannot build it high enough; we cannot string 
the wires sharp enough; and we ought to be able to create 
something that has great fluidity in it and integrity.
    Thank you all.
    Chairman Chambliss. Thank you, Senator Craig.
    Senator Cornyn?
    Senator Cornyn. Gentlemen, thank you very much for being 
here, and each of you have my tremendous admiration for the 
task that lies before all of us and the task that you perform 
daily in dealing with some of the most complex problems we have 
in this country.
    One of the things that intrigued me about the President's 
principles when I heard him talk about it was the concept, what 
we have come to call in my office the concept of work and 
return. And Mr. Aguirre, Senator Craig talked about those who 
are already here and who have families and the difficulty of 
addressing that population, but, of course, any temporary 
worker program would not just address those who are already 
here but those who want to come here and work in the future.
    And one of the unexpected results of our increase in border 
security is it has made it more difficult for people who want 
to go home and come back to do so. And indeed, as I alluded to 
in my comments earlier, what I have learned about this issue 
over the last 6 or 8 months has been that our friends in Mexico 
and other countries want their citizens to come home, to be 
able to come home and to do so, to cross the border back and 
forth legally and not to be trapped, in a sense, in sort of a 
counterintuitive way, in this country and have to subject 
themselves to the coyotes and others, the human smugglers who 
care nothing for them but only for the money that they pay to 
bring them back illegally.
    But I was also intrigued after President Bush talked about 
this concept, which I will call work and return, that President 
Fox, Vicente Fox, also endorsed this concept. And here again, 
the notion that if Mexico, for example, one country that might 
be affected, is going to improve the quality of life and 
opportunity for its own people, it needs to have the 
hardworking risk takers able to come back to visit family, to, 
hopefully, come back with the skills and the savings that they 
have been able to accumulate while temporarily away in this 
country, but then, they would be able to come back to buy a 
home, create a small business, and create jobs which 
ultimately, I think, are the long-term solution or at least 
part of the answer to our immigration problems.
    Why does the administration think that it is so important 
to encourage return to home country? And could you talk about 
the financial incentives? Is that a part of what the 
President's proposal contemplates, that there be a financial 
incentive to return as well?
    Mr. Aguirre. Well, Senator, let me see if I can touch on 
the ones that you mentioned. One, from the financial incentive 
standpoint, I think the President has proposed that we will 
work with foreign governments so that, as individuals return to 
their country, they are given credit for work they have 
performed so that, as they take advantage of their own 
retirement or Social Security system, whatever it may be 
called, they are not penalized for having been absent from this 
country.
    I know your bill has a feature which, of course, allows for 
an escrow to be placed and for that escrow to somehow be 
returned to the individual as they depart the country. I think 
we have got to recognize that if we are talking about 8 million 
people, there are about 8 million stories out there. Each one 
of them has their own individual needs and wants.
    And to assume that all of them want to stay in this country 
is certainly a fallacy. I recognize that some will. But I think 
there is a significant percent of that universe that has no 
interest in staying here. They came here for economic reasons, 
not for any other reason. And I think they would very much 
welcome the opportunity to go back to their homes with a little 
capital in their pockets and the opportunity to stay amongst 
their family and the land that they know and love of their 
birth.
    We are going to have to find a bill that addresses the 
majority of the universe if not necessarily the entirety of the 
universe.
    Senator Cornyn. Mr. Hutchinson, obviously, when I was 
talking about the tough job you have, you have got one of the 
toughest, trying to enforce the laws that we currently have on 
the books, when, unfortunately, my opinion is, and I think it 
has already been expressed, that we have lacked the political 
will. Certainly, we have lacked the will to provide the 
resources to law enforcement authorities to enforce our current 
laws.
    But it seems to me that one of the benefits of a temporary 
worker program would be to differentiate between those who want 
to come here to work and to provide for themselves and their 
families and then return home, to differentiate between that 
population and those who want to come here to harm us, either 
the terrorists or the drug smugglers or other outright 
criminals.
    I know one figure that I have seen that there are as many 
as 80,000 criminal alien absconders currently in our country 
now. Would you address the issue of how you think the 
President's principles, creation of a temporary worker program, 
would allow you to focus your resources on the people who want 
to harm us?
    Mr. Hutchinson. It would from a number of ways. Right now, 
anecdotally, you have increased cross-border trafficking during 
the holiday season. You have illegal immigrants that are 
wanting to go back home, so they go back through the port of 
entry. Then, after the holidays, they come back to their place 
of employment. They have to sneak across the land border to do 
that.
    Obviously, our Border Patrol agents are engaged in 
reapprehensions. You have multiple apprehensions of the same 
individual who is simply going back and forth because of 
economic and family reasons. You take off that layer of 
enforcement requirements, and then, you are able to concentrate 
upon those who, as you said, are trying to cross to do us harm 
or that are trying to circumvent a system that is in place that 
would accommodate those economic workers in a legal way.
    And so, from that standpoint, it helps us on the borders. 
Secondly, in terms of the employer systems, that it diminishes 
the draw of the illegals across the border. You set up a system 
that will diminish the incentives, and you allow us to 
concentrate in the workplace not on the 8 million that are here 
working but are in the shadows, that we do not know about; they 
will be given a temporary worker permit, those who accept that. 
We can concentrate our work site enforcement efforts, to a 
greater extent, on those who are circumventing the law or who 
might want to do us harm.
    So I think there are significant advantages from an 
enforcement standpoint. It addresses what I consider a very 
significant security issue when these people are living in the 
shadows; are afraid to call the police in the event that they 
are abused or they see a crime.
    Senator Cornyn. I know I was interested to hear your 
comment that 40 percent of the illegal population in this 
country is here; they are people who came to the country 
legally but have simply stayed and melted into the woodwork, 
and we do not know, really, where they are. Do you think a 
temporary worker program, requiring people to literally come 
out of the shadows, get on the tax rolls and identify 
themselves in a way that we could know where they are and know 
when they are, perhaps their temporary visa would expire, and 
so, we could enforce the laws that are on the books, would this 
temporary worker program help the Department of Homeland 
Security do that job better, along with the biometric 
technology that you have alluded to earlier?
    Mr. Hutchinson. It would. It takes, again, some of the 
economic pressures away from individuals trying to find some 
legal visa that they can come in on and then overstay the visa. 
It takes off some of those economic pressures. Ultimately, I 
believe that we are going to be able to effectively address 
that whenever we implement fully the US-VISIT system, but as 
you know, Senator Kyl knows, the land border represents a huge 
challenge in this area. And if we can take off some of that 
pressure through this type of a temporary worker program, then, 
that is a step in the right direction.
    Senator Cornyn. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Chambliss. Senator Sessions?

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman.
    There is just no doubt about it; this is a big deal. It 
involves a great deal of public policy considerations, and we 
have got to take our time and think through it. I have not 
supported to date the President's policies. I know you have not 
put out the details yet. But I am uneasy about it, and I have 
not done so.
    I do think he deserves credit for confronting one of the 
biggest difficulties this country faces, and we might as well 
put it on the table. We might as well be honest with one 
another and talk about it. What I think is frustrating, people, 
is that the policy makers in this country are not listening to 
the American people. They have a good heart about it. They have 
good instincts about the matter. And I think they are saying we 
want to have an immigration policy that is generous; we want to 
be welcoming to people who come here. We want them to be a part 
of our economy and be successful at it and prosper and do those 
kinds of things, and we expect you politicians to figure out 
how to do it. And then, we expect you to make it work.
    Well, we have not been making it work, and we know that. So 
I am reluctant to support any proposal that provides a major 
change in our immigration law if we do not first demonstrate a 
commitment to a system that will actually work to make the 
system legal. That is just the way I feel about it.
    Senator Zell Miller and I have introduced a bill called the 
Homeland Security Act, and Mr. Ridge talked about it favorably, 
I think, the day before yesterday. Senator Craig asked about it 
and is a cosponsor of that bill. This bill would make it clear 
that local law enforcement could participate and be a 
responsible partner in this effort. We have, for example, 2,000 
INS agents not on the border, in the homeland, as I understand 
it, for the whole 49 states.
    There are 650,000 State and local officers. They have 
gotten the message one way or another that they are not really 
wanted in this effort, so they do not participate. I learned in 
Alabama from my police that if they apprehend illegals not to 
bother to call INS. Mr. Hutchinson and I have talked about it 
before. I think he got us from one to three agents in Alabama. 
We have got 4 million people. So this is not feasible. We are 
either going to have to have a massive increase in Federal law 
enforcement, or we have got to figure out a way to partner with 
State and local law enforcement to bring some integrity to this 
system.
    One of the things I learned as a prosecutor for many years 
was the power, Mr. Hutchinson, of the NCIC, how magnificently 
effective that is to identify and capture fugitives and people 
who are on the loose. We have about 400,000, as I understand 
it, absconders. Those are people who, through one form or 
another, have been ordered deported--80,000, I believe, felon 
absconders.
    What I learned and was shocked to learn is that that is not 
in the National Crime Information Center, and that means that a 
police officer, if they apprehend somebody who is suspicious, 
and they query that system, it will not come back that they are 
an absconder or even a felon there. So I guess--and I know you 
are making progress on it, and I wrote you about that recently. 
But I notice your letter indicated that you are putting in 
about 200 a day. That is going to be a long time to do 400,000.
    One person, it seems to me, should be able to get 200 a day 
in the system. Can you tell me where we are on that?
    Mr. Hutchinson. Certainly, and first of all, I support your 
effort to make more information available to local law 
enforcement. Alabama should be applauded by their investment in 
this initiative that would help train some local law 
enforcement with our MOU. You all have done great.
    Senator Sessions. Yes; you worked hard at that, and we have 
trained a number of state troopers. But it was a pretty 
cumbersome process, and we need to make that more practical 
nationwide, I think. But thank you for breaking through the 
difficulties we face to make that a reality.
    Mr. Hutchinson. And we are trying to do it in other places. 
We are trying to make that work, and we appreciate your 
partnership and leadership on it. Also, in terms of entering 
the information into NCIC, I agree completely that we are not 
satisfied with the pace of entering the information. I have 
pushed and will continue to push to get that done.
    There were some understandable, practical reasons at the 
outset. You have got to get the approval of the NCIC to set the 
pattern for that. And then, you ask--
    Senator Sessions. Who are they? Who is NCIC?
    Mr. Hutchinson. Well--
    Senator Sessions. Who do we have to get approval of?
    Mr. Hutchinson. Actually, there is a board that governs--
    Senator Sessions. Is that right?
    Mr. Hutchinson. --the entry of records into NCIC that is 
not exclusively Federal law enforcement. It also includes 
private partners in there who have reluctance of putting some 
categories in. But we have reached an agreement with them 
certainly on the alien absconders to put that information in. 
There is not any hurdle now to put the alien absconder 
information in when we have a final order of removal.
    You ask why we are only doing 200 a day. One, we are trying 
to increase that. We need to put more resources and capability, 
but the fact is you cannot put just simply a name in NCIC. And 
it is not a matter of just data entry. You have got to research 
every file to determine the accurate information that can be 
put in there so that whenever a law enforcement officer comes 
across an individual by that name, it is not a confusingly 
similar name that we arrest.
    And so, the requirements are that accurate information. So 
we have got to go through all of the files; determine which 
ones can be put in, meets that criteria, so it is not just a 
matter of data entry. But you are fundamentally right. We have 
got to do better. We are pushing hard on that and hope to get 
some more results.
    Senator Sessions. Well, on that question, have you 
formulated a system so that as of today and in the future, that 
when an order of deportation, removal gets entered that that 
immediately goes in the NCIC? It surely would be valid at the 
time that it is entered.
    Mr. Hutchinson. We are addressing it on the front end, and 
I need to get back and answer that question specifically. I 
hope the answer is yes.
    But in terms of the front end, we are trying to minimize 
the number of people who we do not have the right information 
on or the right guarantee that they are going to show up. So we 
are trying to increase our detention and removal capability, 
our bond requirements, the information flow, alternatives to 
detention, so that when we get that final order, they will 
actually show up in court to be removed rather than us having 
to go out and look for them. So we are trying to address it on 
that front end.
    Senator Sessions. And, Mr. Hutchinson, you would not 
dispute, would you, that if local law enforcement calls about 
one or two individuals that they think may be in violation of 
Federal immigration law, that there are not sufficient Federal 
agents to come and get them or spaces to house them.
    Mr. Hutchinson. That is a correct statement.
    Senator Sessions. So we have got a real problem there, and 
we just got to be honest what the problem is and begin to work 
on it. But I need, and I think the people want to see, a 
commitment from our Government that you are working through the 
problems so we can get to a point that we can have integrity in 
it. Do you agree with that?
    Mr. Hutchinson. I agree 100 percent, and if I leave here 
without having taken the steps necessary to put that integrity 
in the system, then, I have failed in my job.
    I should add that the President did the right thing by 
asking in the 1905 budget for a doubling of our work site 
enforcement but also the detention and removal facilities. We 
have pushed for this. The President put it in there so that we 
do have greater capacity in that area. But we are working 
through it both from a policy standpoint and a resource that 
needs to be devoted to it.
    Senator Sessions. You talk about detention. We have got 
20,000 beds now, I understand. Do you know how many you will be 
able to increase with this budget?
    Mr. Hutchinson. Substantially, but also, it is a budget 
that allows for alternatives to detention. We are also trying 
to work on a policy change that helps us to expedite removal in 
certain circumstances rather than having to house them, so a 
number of things we are looking at in addition to the 
additional money that has been devoted.
    Senator Sessions. I agree that that would be a very, very 
important thing, Mr. Chairman, that having been a Federal 
prosecutor, one of the things that drives you crazy, an open 
and shut matter that should not be in dispute takes 
inordinately long to accomplish. If you could make sure that 
people get a fair hearing and then eliminate the time and 
delays in it, I think this system would work a lot better and 
save a lot of money, free up money.
    I would just conclude that, you know, I am worried that 
while we are not looking at some sort of retrospective amnesty, 
as occurred last time, we are talking about a prospective 
amnesty that could be even larger than the numbers we have had 
in the past unless we know what we are doing here and move with 
great care.
    Thank you for opening it all up so we can talk about it 
openly as good Americans and welcome people who want to come 
here legally and make sure that those who attempt to come 
illegally are not successful.
    Chairman Chambliss. Thank you, Senator Sessions. And you 
have been a very strong voice and a very forceful leader on 
this issue, and we look forward to working with you as we move 
the legislation relative to your particular bill down the road, 
too.
    Senator Kyl?

  STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator Kyl. Thank you, Mr. Chairman.
    Let me begin by commending you for holding this hearing. It 
is important. I think the President should be commended for 
suggesting that we begin this conversation by laying out some 
principles of his own. It is time. He recognized that, and 
consistent with the leadership that he usually exercises, he 
took the bullet in his teeth and said let us start talking 
about it, and I think what Senator Sessions said about that is 
correct.
    We are not all going to agree with every part of this 
proposal, perhaps, but I think it is great that the 
administration's spokesmen can be here to help provide further 
explanations about how the President will approach this and 
how, therefore, we might approach the issue as well.
    I wanted to make a couple of preliminary comments about 
what I see happening back in Arizona, which I know that the 
panelists are generally aware of, but I think it sets the 
backdrop. I know Secretary Hutchinson has been there, for 
example, and I know he has seen it first hand. But I think my 
colleague John McCain referred to a newspaper article in the 
Arizona Republic this morning, which just helps to further 
demonstrate the nature of the problem.
    In Arizona, probably half or more of the illegal immigrants 
entering the country come right through Arizona, probably 
through Cochise County, Arizona, if you want to know exactly 
where. It stresses our systems enormously. And the article that 
I referred to earlier here this morning or yesterday, I guess, 
156 illegal immigrants were found in a home in Phoenix. Much of 
what the police found was similar to what they find almost 
every day: filthy conditions, illegal immigrants being held 
against their will by the coyotes or the smugglers with 
weapons, extracting further payment from the people's families, 
usually in Mexico but sometimes in other places in Central 
America.
    This article, fortunately, did not refer to assault, 
battery, rape, but that frequently occurs with regard to the 
people who are being held. They said that the thing that was so 
interesting about this was that it was in a very nice part of 
town, whereas, most of these incidents have occurred in a 
relatively well-known part of town, where this happens every 
day.
    Sometimes, the Phoenix Police get a call that there is a 
domestic disturbance or something like that. They show up, and 
there was no domestic disturbance. The coyote put in the call 
to get the police to come to clean out the safe house, because 
he has got a new load coming in that night, and he needs to 
make room for them. And the way the people are treated is 
abominable. Our police cannot take care of them, and if they do 
pick them up, the INS does not have anybody to take care of 
them, and so, they end up being put out on the street, and the 
system of lawlessness with respect to this continues.
    My constituents are upset about it. The Mayor of Phoenix 
called on the Federal Government, rightly, to begin to do 
something about this. Our hospitals are having to take care of 
people who cannot pay their bills. As a result, they do not 
provide the care to the rest of us that we should be able to 
expect, because they cannot afford to pay for the doctors and 
nurses that they need in the emergency rooms.
    We are having to take care of illegal immigrants in our 
prisons. As a result, they are overflowing, and we do not begin 
to get compensated under the so-called SCAP program of the 
Federal Government. Environmentally, there was a story in the 
paper yesterday that confirms--and I know Secretary Hutchinson 
saw this, too--there are some very sensitive areas along the 
border, wilderness areas and wildlife preserves and pristine 
forests, and the environment is being destroyed by virtue of 
the huge numbers of people who cross every day and the kind of 
trash they leave behind and so on.
    So the effects are devastating to a place like my State. 
And while it is also true that people hire illegal immigrants, 
and frankly, a lot of it is well-known, and they do perform 
work that is valuable to our society, the taxpayers end up 
subsidizing the businesses that do the hiring, because the 
taxpayers are the ones who have to pick up all of these 
expenses that result from the kind of conduct that I discussed 
before.
    I just would finally note in November, there was an 
incident that occurred that shows how violent and dangerous 
this is becoming: rival smuggling gangs. Smuggling illegal 
immigrants is now almost as remunerative as smuggling other 
contraband and drugs. But these two rival gangs shot it out 
right on the freeway between Tucson and Phoenix. Four people 
were killed, and two were wounded in the shooting when one gang 
kidnapped the other gang's illegal immigrants. Twenty-seven 
people were arrested in connection with that.
    This is getting out of hand. And you have cities in Arizona 
that spend taxpayer money to set up shelters so that illegal 
immigrants can congregate to be hired illegally. Everybody just 
winks at the law. The Federal Government demands that documents 
of identification be confirmed before a person is hired, a 
driver's license and a Social Security card, both of which can 
be counterfeited for--I am not sure what the going price is 
now, maybe $65 or something like that.
    So the Government pretends to have standards and criteria 
that everybody knows are violated. If this is a country of law, 
we have to begin to have a sensible law and enforce the law and 
everybody be committed to it. Now, I would like to say two 
things about that: what troubles so many Americans and 
Arizonans is that for a long time, governments at all levels, 
including the Federal Government, have not been very committed 
to enforcing the laws that are on the books.
    The people know that. They see it every day. And they see 
that local law enforcement does not want to, either. So what 
does that tell them about laws? That some laws can be violated 
with impunity. That is the beginning of the end of society. It 
reminds me of the old Soviet thing: we pretend to work, and 
they pretend to pay.
    We cannot let that happen here in the United States. And 
so, I want to commend the President for saying it is time that 
we begin to seriously discuss that, and I want to commend the 
three of you and in particular, because I know of his work, 
Secretary Hutchinson for ensuring that the administration has 
begun to put things in the budget that will help us enhance our 
enforcement, because I will guarantee you that people will not 
have an open mind about a reform until they believe we are 
committed to enforcing the law.
    And I have had people ask me: why would we think a new law 
will be enforced if there does not seem to be any commitment to 
enforce the old law? So I applaud the administration for 
beginning to make the effort to show people that we mean 
business, we are going to enforce the law. And I am going to 
ask all of you what kind of further commentary you would like 
to make about that. I regret you perhaps did that earlier; if 
so, do not necessarily repeat yourself. I am sorry I could not 
be here at the very beginning.
    But I also, in that same vein, would like to ask Mr. 
Aguirre, you, I know, talked a little bit about the backlog 
reduction team. You are familiar with the CRS report that says 
there is a backlog of over 6 million visa applications. Two 
questions for you: could you enlighten us a little bit about 
what the nature of those visa applications is? And secondly, 
how much it will cost for us to reduce--well, to eliminate that 
backlog and keep it eliminated? And I am not even going to ask 
you the next question, which is and how much more it will cost 
to implement a system which will, in one way or another, 
legalize the status of perhaps 10 or 12 million people who are 
here illegally today and implement a more liberal guest worker 
program for those who would come and go performing work here 
legally in the future.
    Mr. Aguirre. Nothing like a simple question, Senator.
    [Laughter.]
    Senator Kyl. Sorry.
    Mr. Aguirre. Well, our Bureau is almost a year old, and we 
have been working very hard at trying to resolve the problems 
that have built up over the years. And indeed, we have a 
tremendous backlog, a backlog in almost every category. We have 
eliminated one, which is the foreign adoptions certificates, 
but we keep on going.
    The backlog reduction for us has taken on just about a 
laser focus approach. We have a task force, and we are looking 
at specific initiatives that can bring not only a reengineering 
of process, which is so important, but moreso, bringing 
technology into the forefront that, for one reason or another, 
was not part of our Bureau or part of the old INS. We are 
bringing applications online so that people can better apply 
for some of the benefits, relieving some of the pressure of our 
Bureau to input some of the data that the client can do 
directly online.
    We are bringing technology to reduce lines outside of our 
offices and so many other things, Senator. I would be happy to 
get back to you on the specifics of your question. I do not 
have that data with me. But because we take the President's 
initiative seriously, we have begun to look at what are some of 
the possible issues that we will deal with when and if the 
Congress acts on the President's initiative? And we would be 
happy to work with the Congress, certainly with the Senate and 
the House, on identifying practical rules and regulations that 
would be the adjunct of any legislation that you pass.
    And we intend to put a dollar value on that so that fees 
would be assigned to these temporary worker applications that 
would ultimately pay for the process and everything that goes 
with the background checks and things of that nature.
    The President has promised that we will have our 
applications processed within 6 months by September of the year 
2006. The President has given us, over a 5-year period of time, 
$500 million, $100 million at a time. And I feel comfortable 
that the budget that we have just crafted for the 
administration and that is being brought to the Congress will 
allow for that.
    We have actually had to increase our fees, and we have 
announced and put for public comment an increase of the fees so 
that we can actually recoup the money that is being lost today. 
Until those fees are increased, we are losing $1 million a day, 
because some of these applications that go back several years 
are just now being processes, and the cost that was assigned 
then is not at all related to the cost that is today.
    So we are working very hard on that, but I am very 
confident that what the President is proposing will not add 
undue wait on what we are doing. I think we will create new 
processes; we will not have to deal with old processes.
    Senator Kyl. Mr. Chairman, since I have a red light, let me 
just summarize, then, what I think I heard.
    Mr. Aguirre. Yes, sir.
    Chairman Chambliss. Let me just say, Senator, you were not 
here to start with. I know you wanted to make an opening 
statement, and you have some leeway.
    Senator Kyl. I guess I kind of did that in the preamble to 
my question.
    So you will, then, as soon as you can, submit to the 
Committee here, because I think this would be very helpful for 
our deliberations, a breakdown on the 6 million visa 
applications pending; how you intend to get those resolved; and 
by when, to the extent you can estimate that, how much money 
that will require; whether that means any additional funding 
from the Congress beyond what has been asked for; and the 
estimates that you talked about about how to deal with the 
future program that the President has recommended and that 
Congress might implement in some notional way.
    Mr. Aguirre. Yes.
    Senator Kyl. And I understand that is not precise.
    Mr. Aguirre. Yes, Senator.
    Senator Kyl. In that regard, let me just note that I 
appreciated in your testimony that there needs to be for 
enforcement--I forgot which one of you said it, but it is 
obviously very true--that there needs to be some kind of fraud-
proof identification document for people, I would suggest for 
everybody who is seeking employment here, so as not to 
discriminate against everyone.
    That, by the way, would be enormously helpful for ID theft, 
to avoid ID theft, because these fraudulent Social Security 
cards and driver's licenses are today used, and that is a crime 
out of control.
    In any event, just to note, the laser visa for Mexican 
citizens, for those who want to come across for a 3-day, 50-
mile visa, which we very much encourage, that was not 
inexpensive, but the Mexicans--I forgot, now, how many acquired 
that visa, because it was useful for them; it certainly is 
useful to us. We have made it as cheap as possible, and it is 
basically like a card that you swipe through.
    The technology is here. We can do that. We need to make it 
as inexpensive as possible to encourage the use of something 
like that.
    But the other question that I had asked, and if any of you 
would like, then, to respond to this, please do: it goes to the 
efforts that you might want to tell us about, just examples of 
some of the things that we are now doing to demonstrate this 
commitment to enforcing the law, both right now and 
prospectively. If you would like to make any comments in that 
regard, perhaps beginning with Secretary Hutchinson.
    Mr. Hutchinson. Well, I would welcome that opportunity, and 
I was struck by your comment, Senator Kyl, that some of the 
citizens observe that we are not very committed to enforcing 
the laws. And I would not dispute that perception that is out 
there, particularly in some areas of the country, and I think 
that undermines the reforms that we need to undertake, because 
it all hinges upon our ability to enforce the existing and the 
future immigration laws that we might have.
    I am very committed to making that perception change. If 
you look at Arizona, we have added additional Border Patrol 
agents substantially, as a result of our visits there and what 
you have educated us to as to some of the unique problems. ICE 
has instituted Operation ICE Storm there in the Phoenix area. 
They have added a greater response and enforcement capability. 
I know your chief; I think it is Chief Hurt there in Phoenix 
indicated that this resulted in a drop in some of the violent 
crime and residential crime that took place, a very substantial 
drop.
    So we are investing and trying to make a difference in--
your arena is a hot spot in terms of border crossing problems 
and illegality that we need to get a handle on.
    You raise the issue of the Social Security, the fraudulent 
documents. From a policy standpoint, we are looking at that 
very aggressively, trying to enhance the integrity of that. 
Some of those, not Social Security cards but some of the other 
ID cards are dependent upon State action, and we are trying to 
set best practices for the States to respond to to give more 
integrity to those type of documents.
    So a lot, we are doing; much more needs to be done, and we 
are not resting upon what we have done in your arena of the 
world, but we are going to enhance that even more.
    The Department of the Interior was mentioned, which has a 
large strip of your border area there. I talked to their 
enforcement folks, Larry Parkinson, and we hope to be adding 
some of their capabilities to our enforcement efforts as well.
    Mr. Aguirre. Senator, although our Bureau is charged with 
administering and servicing the immigration laws, we take the 
security component of what we do very seriously. We coordinate 
very closely with the groups that are under the responsibility 
of Secretary Hutchinson, ICE and others. But we also recognize, 
over the years, that sometimes, we identify intuitively 
potential fraud. And it has turned out to be an impossibility 
to refer intuitively to the law enforcement side of our 
immigration set some of these wild goose chases.
    So what we have also implemented here is an anti-fraud unit 
that, as soon as we identify a potential problem, our team goes 
and identifies it. And in the cases where there is something 
there, then, we turn it over to Secretary Hutchinson's team, 
and they have a better case to pursue. We, ourselves, are not 
in the law enforcement element, but we prepare a package for 
them.
    Biometrics, of course, is at the core of the future of 
anything that we do. And it is our responsibility, in our 
Bureau, to create the cards, the green cards, the employment 
authorization cards, et cetera. And we have been working very 
closely with new technology to make sure that it matches up 
with what Secretary Hutchinson is doing and that our cards--one 
can never say that they are fraud-proof, but we will try to 
stay ahead of the criminals in making our cards as difficult to 
replicate as possible and that they are tied into a biometric 
function so that we have a secure environment.
    Mr. Law. Our job at the Department of Labor is to make sure 
that American workers come first when it comes to temporary 
worker programs. And we are working to refine our existing 
labor certification efforts to make sure that the system is 
more accurate, efficient, timely and preventive of fraud as 
possible.
    I would just make one more observation from the labor 
market point of view to the issue that you raised earlier about 
the very sobering circumstances in your State and many other 
States about what is underlying that. That is that there are 
severe pressures and realities that impact labor markets right 
now that even the most committed, well-funded, pervasive law 
enforcement efforts can only make so much progress to address.
    And if I can just briefly mention three of them, the first 
of them is this: as was said earlier, there are millions of 
undocumented workers currently holding jobs. Some of them have 
families; they are in their communities, and they exist in our 
country. Some have said 8; some have said 10; some have said 
12; we do not even have a completely accurate count of how many 
there are, let alone exactly where they live or who they work 
for or what they are doing. And most of them lead lives of 
quiet desperation in the shadows, hoping never to be 
discovered.
    Second, there are many, many American businesses that are 
simply desperate to find workers, even in this economy, where 
they cannot find American workers who are willing and available 
to take the jobs. If they do not fill those jobs, the service 
does not get done; the product does not get delivered, and 
there is desperation on that end as well.
    And, then, of course, obviously, and it has been remarked 
many times before, outside of the borders of this country, 
there are many, many more people who, because of economic 
conditions at home or the promise of better things, are 
desperate to come to this country.
    This amalgam of different forces that really are in many 
ways different labor market forces put tremendous pressure on 
the system, such that the President's proposal is not an 
enforcement before a new program; it is both working together 
to alleviate pressures on the system so that Secretary 
Hutchinson and others can devote their time and focus them on--
    Senator Kyl. Let me just interrupt you, because I do not 
think that you want to say that. We have existing laws.
    Mr. Law. Right.
    Senator Kyl. We do not have to pass new laws. We have 
existing laws that need to be enforced.
    Mr. Law. Right.
    Senator Kyl. And I know that the President is not saying we 
are going to wait until we have a new program and then, 
coincidentally with that, begin enforcing the law.
    Mr. Law. Absolutely not.
    Senator Kyl. Secretary Hutchinson has been very clear in 
all of the efforts that he and I have talked about, about the 
need to enforce existing laws. And my point is this: people are 
not going to be open to a program that is very necessary, a 
point I agree with you and certainly agree with the President 
on.
    Mr. Law. Absolutely.
    Senator Kyl. But they are not going to be open minded to 
consider that kind of a program unless they believe that we are 
committed to enforcing the law in this country.
    Mr. Law. Absolutely.
    Senator Kyl. So we should be sure to talk about enforcing 
existing law today and tomorrow.
    You know, just, Mr. Chairman, please indulge me: the 
Phoenix Police Department estimates that two-thirds of the over 
200 homicides in the Phoenix area last year involved illegal 
immigrants. This is not something that we can afford to wait to 
do until there is a new program.
    Mr. Law. Absolutely.
    Senator Kyl. But nobody is saying that enforcement of the 
existing law has to get to a perfect state before we begin 
implementing a new program. That would be impossible.
    Mr. Law. Right.
    Senator Kyl. But I hope that we all will begin to speak 
about this in a way that will begin to convince our citizens 
that their Government is serious about enforcing the law, so 
that when Congress considers a new law, they will be receptive 
and open minded to the changes that we are going to have to 
make, that frankly, a lot of them really do not want to accept 
the fact that we are going to have to accept a lot of illegal 
immigrants in this country.
    They are going to do that, I think, reluctantly, 
grudgingly, perhaps, but I think they will do it if they know 
that we are committed to enforcing the new law that we pass. 
And that comes with a commitment to enforcing existing laws 
such as the commitment that the President has already begun 
through his budget submission and the good work that you all 
are doing.
    Mr. Law. Absolutely, and that is why the first principle of 
the President's proposal is to protect our borders first.
    Thanks.
    Chairman Chambliss. Thank you, Senator Kyl. And you are 
absolutely right. We talked about this a little bit earlier 
with Secretary Hutchinson, and there are two points that you 
and I have talked about outside of here. One is that we have 
got to have a law that we can enforce. Otherwise, the next 
generation is going to face the same problem we are facing. If 
we do not fix it now to where it works in the future, we have 
not done anything.
    Second thing that I mentioned earlier that you and I had 
talked about is that I do not care what law we pass; if we as a 
Congress are not willing to commit the resources to it, it is 
just not going to work. And I think all three of you gentlemen 
would agree that you are going to have to have more tools to 
work with, which means you are going to have more money to make 
sure this program works.
    I just have one question, additional question. Mr. Aguirre, 
how does the administration envision somebody being legitimized 
under this program? What are we going to do with the families 
of those individuals? They are going to be here, potentially 
for years. If they stay employed, and they renew their 
temporary status, they could be here years. Their families are 
going to grow up. What is going to happen to those kids when 
they reach age 18, let us say, and move into the market? What 
are we going to do with them?
    Mr. Aguirre. Yes, sir, Mr. Chairman; I think what the 
President is trying to do is to allow for those who are working 
here who can support their families to provide for a 
colegitimization of the members of the family that are here. Of 
course, these individuals, in many cases, the kids are already 
in school. The mother may be working or not working. And we 
intend to maintain the family unit when the family is present.
    Some of these people are not married. They are single and 
working hard, maybe two or three jobs a day. And that is 
certainly not within the scope of your question.
    Chairman Chambliss. Senator Craig, any followup?
    Senator Craig. I do not.
    Gentlemen, thank you very much. I think we all are 
beginning to grasp the scope of the problem and the realities 
of some of what we have got to do to get our arms around it and 
to give it the credibility that I think Senator Kyl speaks to 
so that the American public can see it, understand it and 
accept what we do here as the right direction, ultimately.
    Thank you.
    Chairman Chambliss. Senator Sessions?
    Senator Sessions. Sadly, I must say that we are further 
away from where we need to be than most of us want to admit. I 
mean, this is a big problem on enforcement. The steps that have 
been taken in recent years under President Bush's leadership 
are greater than, I think, we have probably taken in 20 years. 
I do not know, or at least a number of years, but we have got a 
long way to go. This thing, when you do not have local police 
participating; there is no place to put them; people are being 
released on bail, just immediately run off again instead of 
being deported; the system, NCIC is not identifying those who 
need to be identifying them.
    We are way away. That is the problem, I think.
    Senator Sessions. Senator Kyl, anything further?
    Senator Kyl. No, thank you, Mr. Chairman.
    Chairman Chambliss. Well, gentlemen, I think Senator Craig 
expressed the sentiment of all of us that you have a huge job 
out there, and we appreciate the great work that you are doing.
    This is going to be a very, very difficult issue to get our 
arms around, particularly in the short-term. But we are taking 
the President's principles as a base. Whether we agree with all 
of them or not, again, I just have great respect for a leader 
who is willing to step forward and say this is a problem, and 
by golly, it is time to start addressing it, and let us figure 
out what the answers ought to be.
    So, we look forward to working in a bipartisan way to build 
on those principles and incorporate the ideas of all members of 
the Senate to make sure that we do give you a law that is a 
workable law and that is a law that also will go hand in hand 
with the tools and the resources that we give you to, at some 
point in the very near future, alleviate what is a real problem 
today and if we do not not fix it, is going to be a bigger 
problem for the next generation.
    Thank you for the great work that you do, and Senator 
Kennedy got held up. I know there are other members on the 
other side and probably on our side that will have questions, 
so the record will remain open. We will submit written 
questions, and we hope you will get those answers back to us 
very quickly.
    Mr. Aguirre. Thank you, Mr. Chairman.
    Chairman Chambliss. Thank you very much. We stand 
adjourned.
    [Pause.]
    Chairman Chambliss. To our other panel, I am sorry.
    [Laughter.]
    Chairman Chambliss. Gentlemen, let me apologize. I got so 
wrapped up in what they were saying right at the tail end; we 
certainly did not mean to slight you or forget you. You all 
came a long way to be here, and we want you to know that we 
appreciate you.
    Because of our time constraints, we welcome all of you to 
submit a written statement, but I would ask that you limit your 
oral statement to 5 minutes or less.
    And, Mr. Birkman, we appreciate very much you being here 
from Texas and giving us your insight. We look forward to 
hearing from you.

   STATEMENT OF RICHARD R. BIRKMAN, PRESIDENT, TEXAS ROOFING 
                     COMPANY, AUSTIN, TEXAS

    Mr. Birkman. Thank you, Mr. Chairman.
    My name is Rick Birkman. I own Texas Roofing Company in 
Austin, Texas. I am here representing the National Roofing 
Contractors Association and the Essential Workers Immigration 
Coalition. My grandfather started Texas Roofing Company in 
1935. As a third-generation roofing contractor, I have a 
personal interest in this issue, as it affects my business, my 
industry and my country.
    If you would allow me, I would like to submit my written 
testimony for the record and talk today about several 
misconceptions that always arise when the subject of 
immigration comes up.
    What I consider a myth, the first myth, is undocumented 
workers take jobs from Americans. We teach our young men and 
women that college is the only option for success in America; 
that working with your hands, learning a trade or other service 
work is beneath them. Roofing, as with other trades, is tough, 
physically demanding work. In this technological age, hard 
manual labor and service work does not hold much attraction for 
today's generation.
    But fortunately, the Hispanic community has always prided 
itself on trade work, close family ties, a strong faith, and 
strong work ethic that is the backbone of the Hispanic 
community. When we advertise for workers, we do not care who 
walks in the door. We do not say Hispanics apply only. But 99 
percent of our applicants are Hispanic.
    We have a labor crisis in our industry. We cannot fill the 
jobs we have now. If you could magically remove the millions of 
undocumented workers from the labor pool, it would cripple our 
economy.
    The second myth is these workers are paid a couple of 
dollars a day and are mistreated by employers. Now, while I am 
sure that some of this occurs, it is the exception and not the 
rule. Walk in the door at Texas Roofing Company with no 
experience, and we will start you at $7.50 to $8.00 per hour. 
Walk in with experience in roofing, we will start you at $11.00 
to $14.00 per hour. And we have foremen making up to $21.00 per 
hour. It is not uncommon for a journeyman roofer to make 
$40,000 to $55,000 a year with overtime.
    Now, that is not a bad wage for Austin, Texas. Obviously, 
wages vary in other parts of the country, but this is typical 
with my peers in the roofing industry. These workers pay taxes 
and Social Security, a benefit that undocumented workers will 
never realize.
    Have you ever wondered what happens to the billions of 
dollars that is paid into the Social Security Trust Fund by 
these undocumented workers? These men and women pay taxes, 
raise families and own homes, all in the pursuit of the 
American dream. They service the engine that keeps this country 
running, dirty work that few Americans are willing to do.
    In closing, we have a security crisis in America that must 
be dealt with immediately. A guest worker program is a good 
first step toward regaining control of our borders. I would 
like to commend Senator Cornyn, my Senator from the great State 
of Texas, for introducing the Border Security and Immigration 
Reform Act of 2003. We also commend President Bush for his 
courage and leadership in presenting this bold proposal.
    The immigration system that is in place today serves 
neither America's economic security nor its national security. 
We urge Congress to act. Thank you, Mr. Chairman, for this 
time.
    [The prepared statement of Mr. Birkman appears as a 
submission for the record.]
    Chairman Chambliss. Mr. Birkman, thank you very much.
    Mr. Papademetriou, who is co-director of the Migration 
Policy Institute here in Washington; we welcome you, and we 
look forward to your comments.

 STATEMENT OF DEMETRIOS PAPADEMETRIOU, CO-DIRECTOR, MIGRATION 
               POLICY INSTITUTE, WASHINGTON, D.C.

    Mr. Papademetriou. Thank you, sir. Thank you. I will try to 
be very brief, given the time.
    It seems to me that the President's announcement and his 
ideas, as elaborated by the previous panel, are on the right 
track. But they are incomplete. They are trying to give a 
single answer to a problem that is far more complicated than 
simply adding some additional visas, temporary or otherwise, to 
our immigration system. Temporary workers, significantly large 
numbers of temporary workers, because I think that is what the 
administration is talking about, is indeed a migration 
management tool of the first order. But again, it is not 
enough.
    It seems to me that in order for us to have immigration 
reform legislation that will be worthy of the name and will be 
worthy of the pain that this Committee and the Congress will 
have to endure in order to put a package together will have to 
get it right, more right than we have ever gotten it in the 
past. And getting it right requires that we think in terms of a 
three-legged stool. Some of my colleagues call it the three Es 
of immigration reform.
    The first thing is that we have to do something about the 
10 million people who are already here. I hear numbers 8 to 12, 
15. I believe that the number is around 9 point something, and 
I think we have to be practical about it. I think it is 
imperative that we offer some sort of a means through which 
these people can earn legal status and a pathway to legal 
permanent status for those who meet whatever requirements all 
of us, this Committee, the U.S. Congress, chooses to require of 
them. We have to ask people to earn their new status through an 
earned regularization system. Reasonable people, in this room 
and elsewhere, can come up with what those criteria must be.
    And in order to avoid the mistakes of the past and learn 
from the 1986 legalization program, we have to push the 
requirements forward. Ask people to prove after they have 
passed the security test that indeed, they can meet the 
necessary requirements in order to get legal permanent status. 
Those who do will actually continue to make enormous 
contributions to our country; those who do not then can be 
targeted for enforcement and removal.
    The second part of this three-legged stool approach to 
immigration reform is dealing smartly with demand. Back in 
1986, when we spent an awful lot of time, from 1981 to 1986 
before we actually passed comprehensive immigration reform, we 
pretended that somehow, there was no real demand for these 
people; that somehow, the U.S. Congress could act, put together 
some sort of an enforcement package and some sort of a 
legalization, a partial legalization program, and somehow, 
people would just either disappear or obey the law.
    But in reality, we forgot to take into account the market, 
so this next time around, let us make sure that we actually 
take into account the market, what my colleague here mentioned 
about demand for workers.
    And that demand has to be met with a combination of visas. 
Some of them will have to be temporary work visas. Some of them 
will have to be permanent work visas, and reasonable people can 
actually tell the distinction. You will have to come up with 
legislation that will draw the line as to who should qualify 
for the one and who will qualify for the other.
    But we will also have to do something about family visas. 
It is not only the delays in the system that Mr. Aguirre has 
talked about. It is also the reality that when we ask people 
not to be reunited or not to be united with their immediate 
families--and here, we can have a big discussion about, you 
know, what do I mean by family? What you may mean by family, 
Mr. Chairman, or what others may do. And that discussion is 
worth having. But if you split families and continue to expect 
people not to reunify with their spouses or with their 
children, that part of the legislation, of the law, will not be 
enforceable.
    Finally, and I know that this next word is probably almost 
as much of an anathema as the amnesty word appears to be for 
some, we are going to have to really do enforcement. And this 
time around, at least, we are almost there in terms of the 
border enforcement. More will have to be done. We are going to 
have to be smarter; more resources will have to be put there.
    But more importantly, we are going to have to rethink our 
interior enforcement. I know that it is important that we 
enforce the laws, but if we do not have laws that make sense, 
if we have laws that go against the market and against human 
nature, if we have laws, on the one hand, and then, through 
another act of Congress, we basically take away the power to 
enforce those laws, then, we do not have laws at all.
    Employer sanctions is an idea that has failed to get roots 
in the United States, and, sir, if you will allow me, not 
because we do not have enough resources but because it happens 
to be a bad idea. It happens to be contrary to what we often 
hear, something that most Americans, once they have explained 
to them what the legislation really tries to do, really do not 
buy into it. It is a foreign idea. It was introduced in Europe. 
Europe, on a proportionate basis, invests 10 to 20 times as 
many resources in the enforcement of employer sanctions. It has 
developed special courts that penalize employers and send them 
to jail because regular courts were not doing that. And guess 
what? The added net illegal population in Europe now stands at 
roughly the same level as it is in the United States, about 
half a million new illegals every year.
    We should consider why. Thank you very much, sir.
    [The prepared statement of Mr. Papademetriou appears as a 
submission for the record.]
    Chairman Chambliss. Thank you, sir.
    And Mr. Cervantes, I know we called on you at the last 
minute to replace Mr. Zevanta, and I am sorry he had this 
family emergency, but we appreciate having you here. Thank you.

 STATEMENT OF CHARLES CERVANTES, GENERAL COUNSEL, U.S.-MEXICO 
             CHAMBER OF COMMERCE, WASHINGTON, D.C.

    Mr. Cervantes. Well, Mr. Chairman, it is my honor to be 
here, and Senator Craig and the other Senators who gave their 
good time, and frankly, very perceptive and educational 
information to me at this point.
    The United States-Mexico Chamber of Commerce was formed 30 
years ago to provide private sector input to the governmental 
activities of both countries. We have about 1,200 members on 
both sides of the border. We have the unique perspective of 
companies on the Mexican side who are also buying and using 
this same labor pool. And so, we take that into account as we 
look at servicing our membership.
    I am just going to highlight some of the areas that have 
been touched upon. Certainly, we are in favor of the 
President's proposal and want to help create a system that not 
only involves the employers but the employees and government. 
It is obviously an essential part here. We also want a system 
that will provide some sort of legal redress for predatory 
employers, those people who violate the human rights or civil 
rights of those persons who are in this country.
    We agree also--I believe it was mentioned earlier--that the 
labor certification process as it exists today is archaic. It, 
in some cases, takes 3, 4, 5 years. We are looking at something 
that is more rapid fire, something that will address the needs 
of an employer when there is no willing American citizen to 
take the job and match it up very quickly. Five years is too 
long to make that match. That may be part of the problem.
    Today, certainly, in the Chamber, we have promoted training 
programs not only for our small U.S. companies but also for 
Mexican companies to be able to use electronic commerce as a 
rapid way to communicate and also the use of biometrics. So 
perhaps the laws that have been on the books for 20, 25 years 
have not kept up with the technological capabilities which we 
have and which were mentioned by Secretary Hutchinson and also 
by Commissioner Aguirre.
    The Mexicans have initiated, and we have worked with the 
Mexicans, the businesses and the Government in a number of 
areas, perhaps a tool that may be useful if the United States 
had a similar tool, and that is their Matricula Consular. I was 
fortunate to be one of the observers in the 2000 election. We 
went to 22 polling places. And the card that they used does 
have a biometric. It has got the thumbprint, an indelible 
thumbprint that cannot be removed and a photograph.
    I mean, they have not gone as far as retinal scans, but 
certainly, we know that the FBI today is capable of processing 
and reading fingerprints with a rapidity similar to that which 
you can card scan those international product codes at the 
grocery store.
    So we encourage continued coordination, and I think you 
need that coordination from the sending country so that they 
can provide some help on that end, particularly Mexico, if some 
of these workers are going to leave and go back. We have heard 
all of the different scenarios. But I think that to do it on 
one leg is not going to be sufficient. There has to be some 
coordination, particularly with this type of advanced 
technology that may not be foolproof, but you may get very 
close to eliminating fraudulent replication.
    So the Chamber and its members, who are employees, 
employers, welcome the initiative by the White House, and we 
remain confident that this effort--and certainly, from what I 
have heard today, I think it is going to happen and hopefully 
on a bipartisan basis--that this will address the reality that 
we have all agreed today exists. We cannot look the other way. 
And coming up with a system, procedures and the use of 
technology such as biometrics that I think this body may be 
able to come up, craft a very good piece of legislation that 
will serve us all well, and we welcome it.
    Chairman Chambliss. Again, thank you, Mr. Cervantes, for 
being here on short notice.
    Mr. Vernon Briggs, professor of industrial and labor 
relations at Cornell University, we are pleased to have you. We 
look forward to your comments.

 STATEMENT OF VERNON BRIGGS, PROFESSOR OF INDUSTRIAL AND LABOR 
        RELATIONS, CORNELL UNIVERSITY, ITHACA, NEW YORK

    Mr. Briggs. Thank you, Mr. Chairman.
    Let me start with some of my conclusions, since I am last 
here and I now sort of see why. We have actual experience with 
guest worker programs, and that experience has been awful. We 
have had recommendations by highest commissions that have 
studied these programs: the Jordan Commission, the Hessberg 
Commission, the Voss Commission, others. All have said, as I 
mention in this testimony, do not do this, unequivocally, 
unequivocally.
    The wise counsel of distinguished Americans who have served 
on a host of national commissions cited in the testimony have 
intensely studied this issue and, in the starkest terms, have 
warned do not pursue this type of policy. In fact, I want to 
say right from the beginning of my testimony: I know of no 
other element of immigration policy, and I have been writing 
and teaching in it for 40 years, in which the message not to do 
something is so unequivocal. One has to have an enormous amount 
of gall to stand up against, I think, the evidence of the 
past--not me, and I have cited, because I have testified 
before, all of these groups of the past. I am not going to use 
my words. I am going to use their words on what experience has 
been.
    And I am not going to go through--I will just mention that 
historically, guest worker programs started in World War I. In 
World War II, we had them; the Korean War; they were temporary 
things. And during wartime, we do a lot of things that are 
temporary in the national interest: wage and price controls, 
confiscatory taxes on profits, waiving antitrust laws. Guest 
worker programs were introduced in that. And they are 
understandable in periods of national peril. You do 
exceptional, extraordinary things.
    When those wars ended, all of those other policies quickly 
ended. For some reason, this one, one of the histories has 
been, once employers get addicted to these programs, they do 
not want to let go. And the experience of all of those programs 
from the wartime periods was that they were continued. I cited 
it all for you. I will not go through it. You are welcome to 
read it: the British West Indies program, the rest of it.
    We started some nontraditional programs, that is, peacetime 
uses, with the H-2 program. Most of that experience has been 
unsatisfactory, too, and I could cite you where it has actually 
been used in the Virgin Islands and Guam with disastrous 
consequences, documented by the staff of this Committee, the 
publications of this Committee, if you look at where I cite.
    But let me turn now to this other idea of using it to 
combat illegal immigration. This is not a new idea. It has been 
around for 30 years. I have argued against it for 30 years, and 
it still comes back. It is a bad idea that just will not go 
away.
    President Jimmy Carter requested, in 1978, that the 
National Commission on Manpower Policy study whether the H-2 
program should be expanded as an alternative for illegal 
immigration as part of his initial package to deal with illegal 
immigration. That Commission, chaired by Professor Eli 
Ginsburg, a bipartisan commission of leading manpower experts, 
strongly recommended against expanding the H-2 program, because 
the evidence was that it would distort labor markets. It would 
make a self-fulfilling prophecy before long that you cannot 
find citizens to do the work.
    During that same period, the Hessberg Commission was 
formed, the Select Commission on Immigration and Refugee 
Policy, the first commission to study this issue of immigration 
in a comprehensive way. Father Hessberg, as I quote here, says, 
this idea of temporary workers was tremendously attractive. 
These are his words. Perhaps I should say seductive. There is a 
superficial plausibility to this argument. And the Commission 
gave serious consideration for a year and a half. I can recall 
being very much entranced by it when I first joined the 
Commission. In the end, we were persuaded, after much study, 
that, quote, it would make--all this is a quote--it would be a 
mistake to launch such a program. And he lists six reasons--I 
will not go through them for limited time right now--explicitly 
saying why do not do this. The evidence and the testimony and 
their experience has been do not do it.
    The final conclusion, after looking at those six reasons, 
quote, we do not think it wise to propose a program with 
potentially harmful consequences to the United States as a 
whole. This is bad policy for the whole country. It is not just 
bad immigration; it is an awful policy to even to begin to 
suggest. That is Father Hessberg, one of the most knowledgeable 
and sensitive men ever to write on immigration. And I welcome 
the opportunity I have had today to go back and reread all of 
that again. That was his testimony before this Committee that 
is cited here. Do not do this. That is his recommendation.
    The Reagan administration proposed a guest worker program. 
Simpson and Mazzoli rejected it. They did not include it in 
their proposal. We know the SAW program came along by 
Congressman Schumer at the time. That proposal was very 
extremely controversial, sort of an earned amnesty, as we would 
say today. That program was a disaster. The New York Times 
called it, quote, one of the most extensive immigration frauds 
ever perpetrated on the U.S. Government, because of the 
document fraud. The estimate was that 200,000 people were going 
to come forth. 1.2 million came forth, and almost all of them 
got approved, because the documents, those documents to justify 
employment can be counterfeited, too. And I list this other 
testimony, just asking employers--those documents can all be 
fraudulently made, too, to justify whatever you try to set if 
you set up this type of program.
    IRCA required that the Voss Commission be set up, the Voss 
Commission to study the effect of IRCA, the SAW program. The 
Voss Commission was an employer-dominated council, employer-
dominated. Voss was director of the Department of Food and 
Agriculture.
    After 6 years of study, they concluded that the SAW program 
was a disaster, and they recommended--and this ought to be to 
those who support the AgJobs bill that is pending up here in 
Congress, and this is the exact quote from their final report: 
worker-specific and industry-specific legalization programs as 
contained in IRCA should not be the basis of future immigration 
policy, unquote. That ought to kill AgJobs. This cannot be said 
any clearer than that. Now, you go back and read the hearings 
on that, why they came to that conclusion.
    We then get the Commission on Immigration Reform, chaired 
by Barbara Jordan. They go through it, clearly reject it. Their 
conclusion was, quote, a guest worker program would be a 
grievous mistake, a grievous mistake. That is their words, 
unquote. They give you the six reasons, five reasons in this 
case.
    I would say unequivocally, we do not have to listen to 
professors. Look at experience. Look at what the commissions 
have said. These are bipartisan commissions, almost 
overwhelmingly unanimous in what that literature has shown. And 
this proposal ought to die today.
    We do need to get on with the illegal immigration. This is 
the 12th time I have testified before Congress. I have been 
arguing against illegal immigration for a long time. Let us get 
on with the real issues: making employer sanctions really work. 
Let us stand up behind them. Let us enforce them and let us 
make clear that there are not going to be any amnesties. There 
are not going to be any guest worker programs. We are going to 
have an immigration system that is going to work.
    And I point out to you in closing that we have 34 million 
low wage workers in the United States, one quarter of the 
United States labor force. And that is this betrayal. It is 
awful to sit here and listen to people say I cannot find people 
who are going to work. We have got 34 million low wage workers, 
making less than $8.70 an hour. In this particular study, it 
cites it. The problem is we have got an oversupply of 9 to 12 
million illegal immigrants who are competing to keep their 
wages down, driving them down.
    Getting illegal immigrants out of the labor force should be 
the first order of business. Then, we will talk about some 
other things. Let us be sure that we can enforce the 
immigration systems, as a couple of Senators have said here. 
Then, talk about amnesties or something else along this line 
later. But let us find out if we can stop illegal immigration 
first, because those other experiences have been that you 
cannot stop illegal immigration with guest worker programs. 
They generate illegal immigration. And that is the experience 
with every one of them, and every one of these commissions has 
said this.
    There is no answer to illegal immigration by guest worker 
programs. All you do is legalize the ones that are here. That 
does not stop more from coming. You have got to prove that you 
can actually enforce the system first, and we can do it. But we 
cannot do it with a guest worker program or any prospect of 
amnesty, any prospect whatsoever. And hopefully, you will read 
the more reasoned arguments in the paper than my emotional 
argument during the testimony.
    Thank you.
    [The prepared statement of Mr. Briggs appears as a 
submission for the record.]
    Chairman Chambliss. Well, thank you very much, Dr. Briggs.
    My logical question to you is if the guest worker is not 
going to work, and, as you state, that anybody can falsify 
documents and bring them in to Mr. Birkman and show him a green 
card and a Social Security card or any other kind of card that 
we require, at least at this point in time, is proved to be 
counterfeitable, what does he do? How do we sanction him for 
hiring somebody who walks in with a legitimate Social Security 
card, a green card, or any other document that appears 
legitimate on its face?
    Mr. Briggs. I would say go back and say what Father 
Hessberg said on that commission. And he was for national 
identification cards. I know that is a no-no politically. But 
we are getting close to the time in which we are going to have 
to address these issues, not because of immigration reform but 
because of all of the other security issues we have got.
    I have got, in about a half an hour from now, to show my 
driver's license to get on the airplane to go home tonight. 
Well, a driver's license can be fraudulently--what is the point 
of this, going through this? In fact, it is going to be checked 
three times tonight, showing this piece of thing. And does 
anybody believe that is protecting this Nation? It is just a 
harassment. We have got to address the issue of--we have got to 
come up with what is being suggested with some of these other--
biometric identification cards. It is part of this world which 
we live in today. That is the sad part.
    I do not say that because I want it to happen. Father 
Hessberg did not say it because he wanted it to happen. He said 
it has got to happen; it has got to happen. That is the age we 
live in. We are going to have to have some sort of 
identification, not that you have to carry around; not like a 
national ID that you have got to carry around all the time. But 
those few times, when you go in to look for a job, the most 
valuable thing this economy has to offer, a job, the most 
important thing of all, that you have to show a card that 
identifies who, in fact, you are.
    And that means it is going to cost money to get to some 
sort of--these biometric cards that actually can show your 
data, who you actually are, not just a picture of you or a 
piece of paper. And we are going to have to bite that bullet. 
And all of these other documents can be easily counterfeited, 
and they are being.
    And until that time, as Father Hessberg said, this is 
nothing about Big Brother-dom and all the rest of it. It is the 
reality of the world we live in.
    Now, of course, his recommendations were left out of IRCA, 
and that is what made IRCA a failure. We knew it was not going 
to work without the ID. Employer sanctions will never work 
without a better ID system. We have got that deal with the 
fraudulent documents. All of those commissions say that. It is 
a bullet someone is going to have to bite if you really want to 
get this issue solved. And I think it is in the national 
interest, it is the national interest, to see this done--again, 
not an ID that you have to carry around, and a policeman can 
stop you on the corner, where is it, but in those cases where 
you want to get Social Security, or you want to get on an 
airplane, or you want to get a job, you are going to have to 
show it and be able to find out who it is.
    Now, there are better people than me who know how to do 
those things, but I am told that they know how to do it, and 
apparently, they are doing it on some of the Border Crossing 
Cards already.
    Chairman Chambliss. Mr. Papademetriou, let me ask you, you 
probably heard my question to Mr. Aguirre relative to this 
family issue that you addressed, and that is whatever program 
we go to is going to create problems in and of itself, and one 
of them is these families of a legal worker here. How would you 
suggest we approach that with respect to somebody who is here 
legally under a guest worker program, that might legitimate 
them? What is going to happen to their wife? What is going to 
happen to their children from the standpoint of how we should 
address them?
    Mr. Papademetriou. Well, Mr. Chairman, it all depends on 
how many times you actually offer people a 3-year temporary, in 
quotes, visa. In other words, if you do that two or three 
times, I suspect several of those children who are American-
born children will have reached the age of majority per the 
immigration rules, and they will be able to sponsor their 
parents. And then, you will have to have the choice of 
separating parents and children one more time or passing a 
different sort of legislation.
    If I might, and I know I am being presumptuous, if I might, 
I would like us, if we are going to do it, to do it sort of 
right this time. They keep passing legislation for a specific 
period of time. There are not enough jobs; let us increase the 
visas. And they stay there permanently. There are too many 
jobs. Let us try to decrease the visas. And they stay low 
permanently.
    This time, perhaps, we can try to pass legislation for all 
seasons rather than just for the next year or two. And it seems 
to me that in order to do that, we are going to have to get 
down and dirty and do something about all three things that we 
need to do. And there is no other way to do that, sir, no other 
way. I have studied this phenomenon for over 30 years. I have 
written about 180 different pieces on this, and I have advised 
many governments, and contrary to what my very good friend 
Vernon Briggs--we have even written together--says, let me just 
give you a very simple example, just about the national ID 
card.
    There are countries in Europe that go beyond a national ID, 
and they have something that is called a population registry. 
That is not just a national ID. It is the requirement to 
actually go to the police and tell them that you have changed a 
job, that you have changed your location where you basically 
live, that you have changed whatever that is material about it. 
And the underground economy, fed primarily through illegal 
immigration in these very same countries, keeps increasing by 5 
to 7 percent per year.
    Sir, if there was an easy way to do this, we would have 
done it. An awful lot of people, Ted Hessberg and everybody 
else, and Vernon Briggs and others, have really thought very 
hard about this. It comes to a point where you basically have 
to say let us try to follow, perhaps, a zero-based policy 
review. Instead of building on bad ideas, perhaps we ought to 
start anew with some of these ideas.
    I am saying this with the utmost respect, sir. For many 
reasons, including the fact that so many of these programs 
simply have too much baggage that really weigh them down, they 
have too much history, and we really have to start thinking 
differently, recognizing that for better or worse, there is an 
extraordinary and increasing demand for the type of labor that 
Mexicans and others bring and contribute to this economy, for 
better or for worse, and trying to manage that flow is more, it 
is smarter, makes more sense, than either denying it, which is 
what my friend Mr. Briggs is doing, or Ted Hessberg or anybody 
else, or simply saying let us live with illegal immigration.
    Just a small calculation, just to show you, back of the 
envelope completely, if you will allow me: some of your 
colleagues had a conversation with Mr. Hutchinson earlier, and 
he talked about enforcement dollars. Let me give you a simple 
calculation: we have about 10 million people who are here 
illegally. Suppose that about 60 percent of them actually play 
by whatever new rules this Congress devises. Forty percent of 
them, 4 million people, will not. These people are either going 
to be the nucleus of an ever-expanding additional illegal work 
force and illegal immigration force, if you will, or we are 
going to have to do something about them, such as pick them up 
and remove them.
    The math is as follows: there are, let us say, 400 days--I 
do not want to make it difficult, 365--400 days in a year. 
Suppose that Mr. Hutchinson, with many more dollars, is able to 
pick up 500 of them each year. It will take him 20 years to 
remove these people. And this assumes there have been no new 
additions to the undocumented force in the United States.
    So, picking them up, packing them over and throwing them 
overboard is not going to do it. You think of resources? About 
$100 a day to keep somebody in jail. That does not include 
investigative resources; it does not include the resources that 
it takes in order to really give their claim to perhaps that 
they should stay in the country, because they have some 
equities, or what have you. Removing an individual from the 
United States, even if you basically make it terribly, 
terribly, easy, and the 1996 legislation, three pieces of them, 
have made it relatively easy, relative to what it used to be 
before, is an issue that costs tens if not hundreds of 
thousands of dollars. We do not have the resources for that.
    And if we are going to take the President's underlying 
assumption that part of the reason that we should be doing this 
is for security, domestic security reasons, in order for us to 
be more reassured that somehow, 35 or 1 or 500 among these 10 
million of unknown people in the United States do not really 
wish us harm, we are going to have nearly 100 percent 
participation through any program that we devise, because that 
is the buy-in in order for them to pass through these security 
screens. There has got to be some buy-in. And that is an 
expectation that something is at the other side for them.
    Some of them, I am convinced, many people disagree with me, 
some of them will actually choose to go back and forth. Ten or 
15 years ago, the rule of thumb about Mexican migration to the 
United States was that it was something that we used to call 
circular: they come, they stay, they work in agriculture, they 
put together, you know, a bit of money, they go back, they try 
it, they open up a shop, buy some sort of a taxi, what have 
you; they succeed, perfect. They do not succeed, they come back 
here.
    What the President's--in a sense, the genius part of the 
President's recommendations or principles is that reintroducing 
the possibility of a circularity, or, for that matter, Mr. 
Craig's bill, Mr. Kennedy's bill, reintroducing circularity, 
bringing the program more in harmony with reality, makes sense. 
But we must not forget that the other things will also have to 
be fixed.
    This is about integrating our responses. If you only do one 
of them, you might as well not do it at all. The only reason 
that Mr. Kennedy's and Mr. Craig's legislation makes sense to 
do independently of anything else, because the circumstances in 
the agricultural labor market are so unique that they actually 
create an opportunity for us to do something unique to that 
particular sector.
    Everything else will bleed into everything else. So it 
seems to me that it is important that we do that. And if we 
engage this conversation, we will have to think about worker 
standards. I do not think any reasonable American, I do not 
think that Vernon Briggs disagrees that we have to have worker 
protections and worker standards, and we have to make them 
meaningful. That means not only good laws but good enforcement 
methodology and resources to actually apply this enforcement 
methodology.
    And we are not bereft of ideas, sir. Many of us can talk to 
your staff, as we talked with the staff of many of your 
colleagues, and we can come up with ideas. But it takes 
willingness on the part of the Congress to break the mold.
    I am sorry, sir.
    Chairman Chambliss. We welcome your comments.
    Senator Craig, do you have any--
    Senator Craig. I will be brief, because the hour is growing 
late, but I thank all of you for your testimony, and Mr. 
Papademetriou, you have mentioned a portion of our bill. There 
is one element in it that we think brings people forward, and 
that is a nonpunitive ability to earn something. It is that 
pass-through with something on the other side. And we, 
therefore, stabilize a work force. We identify a work force. 
They identify themselves. They are not limited to stay in 
agriculture. They can work elsewhere in the economy, as long 
as, over a period of time, they earn that 360-day status within 
it to gain permanency.
    The stick in this case has not worked. It will not work. It 
shoves them into the alleys and shoves them into the shadows, 
and then, they become victims of the system once again. Thank 
you for your testimony. You know, in my effort to try to 
understand this, and I nowhere near grasp the scope of it as 
you have with the work that both you and Mr. Briggs have done 
over the years. But the uniqueness of something has changed 
here, Mr. Briggs, I do believe, and I do not disagree with you 
that a lot of what we have tried in the past has not worked.
    I am now beginning to read history and looking at the 
movement and the failures and the efforts. When organized 
labor, who once was quite hostile, is now recognizing the need 
to solve a problem and to create legitimacy and fluidity in 
approach, it helps us change the dynamics. The bias that is, in 
large part, built within all of the past laws that was 
dramatically placed there by an organized labor effort in this 
country that wanted to deny, because it thought they were 
replacing, has changed significantly, I do believe.
    That gives us an added resource in working collectively 
together to solve this problem, and I think that might make a 
modicum of difference that may dispel the ability for us to 
fail once again, because it is inherent within the current 
process.
    Gentlemen, thank you all.
    Chairman Chambliss. Again, let me express my appreciation 
to you. Thanks for sitting through the first part of this 
hearing and for staying around. Your testimony has been very 
valuable. We will enter your complete statements into the 
record, and I assure you they will be studied.
    Thank you very much. This time around, our record will 
remain open for 7 days. There may be some questions, gentlemen, 
that may be submitted to you in writing. We would appreciate 
you addressing those in short order and getting your answers 
back to us.
    Thank you very much for being here.
    [Whereupon, at 5:52 p.m., the Subcommittee adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T4556.001

[GRAPHIC] [TIFF OMITTED] T4556.002

[GRAPHIC] [TIFF OMITTED] T4556.003

[GRAPHIC] [TIFF OMITTED] T4556.004

[GRAPHIC] [TIFF OMITTED] T4556.005

[GRAPHIC] [TIFF OMITTED] T4556.006

[GRAPHIC] [TIFF OMITTED] T4556.007

[GRAPHIC] [TIFF OMITTED] T4556.008

[GRAPHIC] [TIFF OMITTED] T4556.009

[GRAPHIC] [TIFF OMITTED] T4556.010

[GRAPHIC] [TIFF OMITTED] T4556.011

[GRAPHIC] [TIFF OMITTED] T4556.012

[GRAPHIC] [TIFF OMITTED] T4556.013

[GRAPHIC] [TIFF OMITTED] T4556.014

[GRAPHIC] [TIFF OMITTED] T4556.015

[GRAPHIC] [TIFF OMITTED] T4556.016

[GRAPHIC] [TIFF OMITTED] T4556.017

[GRAPHIC] [TIFF OMITTED] T4556.018

[GRAPHIC] [TIFF OMITTED] T4556.019

[GRAPHIC] [TIFF OMITTED] T4556.020

[GRAPHIC] [TIFF OMITTED] T4556.021

[GRAPHIC] [TIFF OMITTED] T4556.022

[GRAPHIC] [TIFF OMITTED] T4556.023

[GRAPHIC] [TIFF OMITTED] T4556.024

[GRAPHIC] [TIFF OMITTED] T4556.025

[GRAPHIC] [TIFF OMITTED] T4556.026

[GRAPHIC] [TIFF OMITTED] T4556.027

[GRAPHIC] [TIFF OMITTED] T4556.028

[GRAPHIC] [TIFF OMITTED] T4556.029

[GRAPHIC] [TIFF OMITTED] T4556.030

[GRAPHIC] [TIFF OMITTED] T4556.031

[GRAPHIC] [TIFF OMITTED] T4556.032

[GRAPHIC] [TIFF OMITTED] T4556.033

[GRAPHIC] [TIFF OMITTED] T4556.034

[GRAPHIC] [TIFF OMITTED] T4556.035

[GRAPHIC] [TIFF OMITTED] T4556.036

[GRAPHIC] [TIFF OMITTED] T4556.037

[GRAPHIC] [TIFF OMITTED] T4556.038

[GRAPHIC] [TIFF OMITTED] T4556.039

[GRAPHIC] [TIFF OMITTED] T4556.040

[GRAPHIC] [TIFF OMITTED] T4556.041

[GRAPHIC] [TIFF OMITTED] T4556.042

[GRAPHIC] [TIFF OMITTED] T4556.043

[GRAPHIC] [TIFF OMITTED] T4556.044

[GRAPHIC] [TIFF OMITTED] T4556.045

[GRAPHIC] [TIFF OMITTED] T4556.046

[GRAPHIC] [TIFF OMITTED] T4556.047

[GRAPHIC] [TIFF OMITTED] T4556.048

[GRAPHIC] [TIFF OMITTED] T4556.049

[GRAPHIC] [TIFF OMITTED] T4556.050

[GRAPHIC] [TIFF OMITTED] T4556.051

[GRAPHIC] [TIFF OMITTED] T4556.052

[GRAPHIC] [TIFF OMITTED] T4556.053

[GRAPHIC] [TIFF OMITTED] T4556.054

[GRAPHIC] [TIFF OMITTED] T4556.055

[GRAPHIC] [TIFF OMITTED] T4556.056

[GRAPHIC] [TIFF OMITTED] T4556.057

[GRAPHIC] [TIFF OMITTED] T4556.058

[GRAPHIC] [TIFF OMITTED] T4556.059

[GRAPHIC] [TIFF OMITTED] T4556.060

[GRAPHIC] [TIFF OMITTED] T4556.061

[GRAPHIC] [TIFF OMITTED] T4556.062

[GRAPHIC] [TIFF OMITTED] T4556.063

[GRAPHIC] [TIFF OMITTED] T4556.064

[GRAPHIC] [TIFF OMITTED] T4556.065

[GRAPHIC] [TIFF OMITTED] T4556.066

[GRAPHIC] [TIFF OMITTED] T4556.067

[GRAPHIC] [TIFF OMITTED] T4556.068

[GRAPHIC] [TIFF OMITTED] T4556.069

[GRAPHIC] [TIFF OMITTED] T4556.070

[GRAPHIC] [TIFF OMITTED] T4556.071

[GRAPHIC] [TIFF OMITTED] T4556.072

[GRAPHIC] [TIFF OMITTED] T4556.073

[GRAPHIC] [TIFF OMITTED] T4556.074

[GRAPHIC] [TIFF OMITTED] T4556.075

[GRAPHIC] [TIFF OMITTED] T4556.076

[GRAPHIC] [TIFF OMITTED] T4556.077

[GRAPHIC] [TIFF OMITTED] T4556.078

[GRAPHIC] [TIFF OMITTED] T4556.079

[GRAPHIC] [TIFF OMITTED] T4556.080

[GRAPHIC] [TIFF OMITTED] T4556.081

[GRAPHIC] [TIFF OMITTED] T4556.082

[GRAPHIC] [TIFF OMITTED] T4556.083

[GRAPHIC] [TIFF OMITTED] T4556.084

[GRAPHIC] [TIFF OMITTED] T4556.085

[GRAPHIC] [TIFF OMITTED] T4556.086

[GRAPHIC] [TIFF OMITTED] T4556.087

[GRAPHIC] [TIFF OMITTED] T4556.088

[GRAPHIC] [TIFF OMITTED] T4556.089

[GRAPHIC] [TIFF OMITTED] T4556.090

[GRAPHIC] [TIFF OMITTED] T4556.091

[GRAPHIC] [TIFF OMITTED] T4556.092

[GRAPHIC] [TIFF OMITTED] T4556.093

[GRAPHIC] [TIFF OMITTED] T4556.094

[GRAPHIC] [TIFF OMITTED] T4556.095

[GRAPHIC] [TIFF OMITTED] T4556.096

[GRAPHIC] [TIFF OMITTED] T4556.097

[GRAPHIC] [TIFF OMITTED] T4556.098

[GRAPHIC] [TIFF OMITTED] T4556.099

[GRAPHIC] [TIFF OMITTED] T4556.100

[GRAPHIC] [TIFF OMITTED] T4556.101

[GRAPHIC] [TIFF OMITTED] T4556.102

[GRAPHIC] [TIFF OMITTED] T4556.103

[GRAPHIC] [TIFF OMITTED] T4556.104

[GRAPHIC] [TIFF OMITTED] T4556.105

[GRAPHIC] [TIFF OMITTED] T4556.106

[GRAPHIC] [TIFF OMITTED] T4556.107

[GRAPHIC] [TIFF OMITTED] T4556.108

[GRAPHIC] [TIFF OMITTED] T4556.109

[GRAPHIC] [TIFF OMITTED] T4556.110

[GRAPHIC] [TIFF OMITTED] T4556.111

[GRAPHIC] [TIFF OMITTED] T4556.112

[GRAPHIC] [TIFF OMITTED] T4556.113

[GRAPHIC] [TIFF OMITTED] T4556.114

[GRAPHIC] [TIFF OMITTED] T4556.115

[GRAPHIC] [TIFF OMITTED] T4556.116

[GRAPHIC] [TIFF OMITTED] T4556.117

[GRAPHIC] [TIFF OMITTED] T4556.118

[GRAPHIC] [TIFF OMITTED] T4556.119

[GRAPHIC] [TIFF OMITTED] T4556.120

                                 <all>

</pre></body></html>
